App. 1
APPENDIX A
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 19-11719
-----------------------------------------------------------------------

D.C. Docket No. 1:18-cv-04570-WMR
JOY LASKAR, PH.D.,
Plaintiff-Appellant,
versus
PHILLIP W. HURD,
PATRICK A. JENKINS,
JILDA D. GARTON,
MARK G. ALLEN.
Defendants-Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Georgia
-----------------------------------------------------------------------

(August 28, 2020)
Before WILLIAM PRYOR, Chief Judge, ROSENBAUM,
Circuit Judge, and MOORE,* Chief District Judge.
WILLIAM PRYOR, Chief Judge.
* Honorable K. Michael Moore, Chief United States District
Judge for the Southern District of Florida, sitting by designation.

App. 2
The main issue in this appeal is whether the dismissal of a prosecution as untimely satisfies the
favorable-termination element of a claim for malicious
prosecution under the Fourth Amendment. Joy Laskar’s
complaint alleges that Jilda Garton, Mark Allen, Patrick
Jenkins, and Phillip Hurd—four ofﬁcials at the Georgia Institute of Technology—played a role in creating a
report that falsely accused him of stealing resources
from the Institute, which then led to his arrest and
prosecution for racketeering and theft. After a state
trial judge dismissed the prosecution as untimely,
Laskar sued the ofﬁcials in the district court for malicious prosecution under the Fourth Amendment. The
ofﬁcials moved to dismiss the complaint and invoked
qualiﬁed immunity. The district court concluded that
the dismissal of Laskar’s prosecution was not a favorable termination and granted the motion. We disagree
and conclude that a dismissal for untimeliness qualiﬁes as a favorable termination. We also conclude that
Laskar has alleged that Hurd and Jenkins, but not
Garton and Allen, violated his clearly established constitutional rights. We afﬁrm in part, reverse in part,
and remand.
I.

BACKGROUND

Laskar was an electrical engineer and professor at
Georgia Tech who served as the director of the Georgia
Electronic Design Center, a research entity afﬁliated
with Georgia Tech. The Center established partnerships with technology companies that provided funding to the Center in exchange for collaborating with

App. 3
researchers from Georgia Tech. Laskar founded and directed one such company, Sayana Wireless LLC, which
became a paying member of the Center, entitled to use
the facilities, equipment, and staff of Georgia Tech.
In December 2009, Garton, the Associate Vice
Provost for Research, and Allen, the Senior Vice Provost for Research and Innovation, requested that the
auditing department at Georgia Tech investigate
around $650,000 in cost overruns at the Center. Over
the next two months, Garton and Allen expressed
their concerns to Hurd, the Chief Audit Executive, that
Laskar was mixing his work at Georgia Tech with his
work for Sayana and that money at the Center was
being “double spent.” Hurd, who led the investigation,
expanded the audit to all of the Center’s ﬁnances.
In April 2010, Hurd and his audit team, which included Jenkins, produced a report that accused Laskar
of lying to the Internal Revenue Service, misusing
equipment and other property of Georgia Tech to beneﬁt Sayana, and committing other violations of Georgia law. Hurd later reported that the amount of theft
“may be as great as $700,000 to $1,470,000.”
Hurd gave the report to the Associate Vice Chancellor of Georgia Tech, who notiﬁed the Attorney General of Georgia. The Georgia Bureau of Investigation
began to investigate Laskar. In May 2010, a special
agent from the Bureau submitted an afﬁdavit to two
state judges to secure warrants for the search and
seizure of Laskar and his property. The affidavit
explained that the “primary source of information”

App. 4
supporting the request was the audit. It also clariﬁed
that “[u]nless otherwise indicated,” Hurd provided the
information supporting the afﬁdavit.
The warrant afﬁdavit reiterated that “Laskar had
used his position at Georgia Tech to steal money and
other resources from the Institute.” It stated that Laskar used funds from Georgia Tech to pay for fully functional microchips that Sayana then sold. It also
asserted that Laskar abused his position at Georgia
Tech to give Sayana illegal access to the school’s equipment, employees, and other resources.
The accusations in the warrant afﬁdavit were
false. After an investigation, the Internal Revenue Service determined that Sayana and Laskar owed no tax
penalties. Sayana was entitled to use the equipment
and resources of Georgia Tech at the Center. And the
only microchips that Sayana used were chip prototypes
it provided to students and faculty at Georgia Tech for
research purposes. Sayana never sold these chips,
which had no market value; instead, it had a collaborative research agreement with an outside company to
test and evaluate the microchip prototypes.
The investigation that Hurd and his audit team
conducted, which provided the basis for the afﬁdavit,
was less than thorough. For example, Hurd and Jenkins
did not investigate whether Laskar or Sayana had
sold the microchips. Nor did they have any evidence
that Laskar had ever taken or used these microchips.
And although Hurd ostensibly expanded the audit to
all of the Center’s ﬁnances, the investigation focused

App. 5
exclusively on Sayana’s relationship with the Center.
Had Hurd and Jenkins examined the Center more
broadly, they would have found that Sayana, like numerous other companies, gained access to the Center’s
resources in exchange for paying a membership fee.
Both judges issued the warrants after concluding
that probable cause existed to find that Laskar had
violated Georgia law. State law-enforcement officers
and officials from Georgia Tech executed the warrants
the next week. They raided 21 locations, including
Laskar’s home, ofﬁce, and vehicle. They seized many of
Laskar’s personal items, including his computers.
Laskar was also arrested and “deprived of his personal
liberty.”
The accusations against Laskar led to a failed
prosecution against him in state court. In December
2014, a grand jury indicted Laskar for racketeering
and theft. The trial court dismissed the charges
against Laskar nearly two years later. It ruled that any
potentially criminal act by Laskar could have occurred
only outside the statute of limitations.
Laskar ﬁled a complaint of malicious prosecution
under the Fourth Amendment against Hurd, Jenkins,
Garton, and Allen. See 42 U.S.C. § 1983. The complaint
alleged that these four ofﬁcials “knowingly provid[ed]
false, misleading and materially incomplete information” about Laskar “to law enforcement and prosecutors” and that they “maliciously instigat[ed] . . . the
criminal prosecution [against him] without probable
cause.”

App. 6
The ofﬁcials moved to dismiss Laskar’s complaint.
They argued that Laskar’s claim failed because the dismissal of the prosecution against him as untimely was
not a favorable termination. The ofﬁcials also invoked
qualified immunity and argued that Laskar had not
alleged that they acted without probable cause, that
they acted with malice, or that they caused his prosecution. The district court agreed with the ofﬁcials that
Laskar had failed to allege a favorable termination and
dismissed his complaint.
II.

STANDARD OF REVIEW

We review de novo a dismissal for failure to state
a claim. Echols v. Lawton, 913 F.3d 1313, 1319 (11th
Cir. 2019). “We accept the factual allegations in the
complaint as true and construe them in the light most
favorable to the plaintiff.” Id. “To survive a motion to
dismiss, a complaint must contain sufﬁcient factual
matter, accepted as true, to state a claim to relief that
is plausible on its face.” Id. (internal quotation marks
omitted).
III.

DISCUSSION

“Qualiﬁed immunity shields public ofﬁcials from
liability for civil damages when their conduct does
not violate a constitutional right that was clearly established at the time of the challenged action.” Id.
(internal quotation marks omitted). This immunity
“protect[s] from suit all but the plainly incompetent
or one who is knowingly violating the federal law.”

App. 7
Kjellsen v. Mills, 517 F.3d 1232, 1237 (11th Cir. 2008)
(internal quotation marks omitted), abrogated on other
grounds by Williams v. Aguirre, 965 F.3d 1147, 1162–
65 (11th Cir. 2020). To receive qualiﬁed immunity, the
state ofﬁcial “bears the initial burden to prove that he
acted within his discretionary authority.” Dukes v.
Deaton, 852 F.3d 1035, 1041 (11th Cir. 2017). Ofﬁcials
that act within their discretionary authority are “entitled to qualiﬁed immunity under § 1983 unless (1) they
violated a federal statutory or constitutional right, and
(2) the unlawfulness of their conduct was clearly established at the time.” District of Columbia v. Wesby, 138
S. Ct. 577, 589 (2018) (internal quotation marks omitted). Laskar does not dispute that the ofﬁcials acted
within their discretionary authority, so he bears the
burden of proving that they are not entitled to qualiﬁed immunity from his claim of malicious prosecution.
To maintain a claim of malicious prosecution, Laskar must overcome two hurdles. First, he must prove
that he suffered a seizure pursuant to legal process
that violated the Fourth Amendment. See Williams,
965 F.3d at 1157–59; Kingsland v. City of Miami, 382
F.3d 1220, 1235 (11th Cir. 2004). This burden requires
him to “establish (1) that the legal process justifying
his seizure was constitutionally inﬁrm and (2) that his
seizure would not otherwise be justiﬁed without legal
process.” Williams, 965 F.3d at 1165. Second, Laskar
must satisfy “the elements of the common law tort of
malicious prosecution.” Id. at 1157 (quoting Paez v.
Mulvey, 915 F.3d 1276, 1285 (11th Cir. 2019)). Under
these elements, Laskar must prove that the ofﬁcials

App. 8
instituted criminal process against him “with malice
and without probable cause” and that the broader
prosecution against him terminated in his favor. Id.
(quoting Paez, 915 F.3d at 1285). Although the common-law elements of malicious prosecution also require proof of damages, see Paez, 915 F.3d at 1285;
Wood v. Kesler, 323 F.3d 872, 881–82 (11th Cir. 2003),
we have long held that “a plaintiff may recover nominal damages even though he suffers no compensable
injury” when he raises a claim of malicious prosecution
under the Fourth Amendment. Kelly v. Curtis, 21 F.3d
1544, 1557 (11th Cir. 1994); accord Williams, 965 F.3d
at 1161, 1168.
Laskar alleges that he suffered a seizure pursuant
to legal process. Although the ofﬁcials are correct that
the search and seizure of Laskar’s property cannot
give rise to a claim of malicious prosecution, see, e.g.,
Williams, 965 F.3d at 1164, Laskar alleges that state
law enforcement obtained a warrant for his seizure. He
also alleges that he was arrested and “deprived of his
personal liberty.” Taken together, these allegations
sufﬁce to plead a seizure pursuant to legal process.
The ofﬁcials contend that Laskar failed to allege
several of the common-law elements of malicious prosecution. To start, they argue that Laskar cannot satisfy
the favorable-termination requirement. Next, the ofﬁcials argue that Laskar failed to allege that they initiated proceedings against him without probable cause
and with malice. Finally, they contend that Laskar
failed to allege that they caused his injury. We consider
each of the ofﬁcials’ arguments under this standard

App. 9
before considering whether Laskar alleged that the
ofﬁcials violated his clearly established rights.
A. Laskar Received a Favorable Termination.
The ofﬁcials argue that Laskar did not receive a
favorable termination. They explain that several of our
sister circuits deﬁne favorable terminations as those
that “indicate the innocence of the accused.” Cordova v.
City of Albuquerque, 816 F.3d 645, 651 (10th Cir. 2016)
(internal quotation marks omitted); accord Jordan v.
Town of Waldoboro, 943 F.3d 532, 545–46 (1st Cir.
2019); Lanning v. City of Glens Falls, 908 F.3d 19, 26
(2d Cir. 2018); Kossler v. Crisanti, 564 F.3d 181, 187 (3d
Cir. 2009) (en banc) (citing Donahue v. Gavin, 280 F.3d
371, 383 (3d Cir. 2002)); Salley v. Myers, No. 19-6374,
2020 WL 4664808, at *3–4 (4th Cir. Aug. 10, 2020);
Jones v. Clark Cnty., 959 F.3d 748, 763–64 (6th Cir.
2020); Awabdy v. City of Adelanto, 368 F.3d 1062, 1068
(9th Cir. 2004). But cf. Manuel v. City of Joliet, 903 F.3d
667, 670 (7th Cir. 2018) (holding that the favorabletermination requirement does not apply to a claim
for unconstitutional pretrial detention). Laskar cannot
satisfy the favorable-termination element, they contend, because the trial court dismissed the prosecution
against him as untimely, which does not suggest that
he was innocent of the charges facing him.
This argument requires us to decide whether a
termination must contain evidence of a plaintiff ’s innocence to be favorable. We have held that a claim of
malicious prosecution accrues when the prosecution

App. 10
against the plaintiff terminates in his favor. See Whiting v. Traylor, 85 F.3d 581, 585–86 (11th Cir. 1996),
abrogated on other grounds by Wallace v. Kato, 549 U.S.
384, 389–90 (2007). We have also held that a prosecutor’s unilateral dismissal of charges against a plaintiff
constitutes a favorable termination. See Uboh v. Reno,
141 F.3d 1000, 1005–06 (11th Cir. 1998). But the details of the favorable-termination requirement, including whether a termination must suggest a plaintiff ’s
innocence, otherwise remain unsettled.
This question implicates our “two-step approach
to ‘deﬁning the contours and prerequisites of a § 1983
claim.’ ” Williams, 965 F.3d at 1159 (quoting Manuel v.
City of Joliet, 137 S. Ct. 911, 920 (2017)). We must ﬁrst
look to the common-law principles that were “well
settled” when Congress enacted section 1983. Nieves v.
Bartlett, 139 S. Ct. 1715, 1726 (2019) (internal quotation marks omitted); accord Manuel, 137 S. Ct. at 920.
“After identifying the relevant common-law rule, we
must consider whether that rule is compatible with the
constitutional provision at issue.” Williams, 965 F.3d
1159–60.
Because the tort of malicious prosecution is the
common-law analogue to the constitutional violation
that Laskar alleges, see id., we examine the favorabletermination element of malicious prosecution as it
existed when Congress enacted section 1983 in 1871.
We then consider whether the relevant common-law
rule is compatible with the Fourth Amendment.

App. 11
At common law, the favorable-termination requirement ensured that plaintiffs could not “recover in
the [civil] action, and yet be afterwards convicted on
the original prosecution.” Fisher v. Bristow (1779) 99
Eng. Rep. 140, 140; 1 Dougl. 215, 215. Although the predecessor to malicious prosecution, the writ of conspiracy, required the plaintiff to prove that a petit jury had
acquitted him, see Edward Coke, The Third Part of the
Institutes of the Laws of England 143 (6th ed. 1680);
Hurlestone v. Glaseour (1587) 75 Eng. Rep. 988, 988;
Gould. 51, 51 (Star Chamber), English courts relaxed
this requirement for the common-law tort of malicious
prosecution. For example, they held that the favorabletermination element did not apply when the relevant
proceedings against the plaintiff were ex parte because
the plaintiff had no opportunity to secure a favorable
termination. See Steward v. Gromett (1859) 141 Eng.
Rep. 788, 793–95; 7 Com. B.R. 191, 203–07. Additionally, the meaning of “favorable termination” encompassed more than jury acquittals. See 3 William
Blackstone, Commentaries *127 (“[A]n action for a malicious prosecution may be founded on such an indictment whereon no acquittal can be; as if it be rejected
by the grand jury, or be coram non judice, or be insufﬁciently drawn.”); see also, e.g., Chambers v. Robinson
(1725) 93 Eng. Rep. 787, 787; 2 Strange 691, 691–92.
Indeed, plaintiffs could satisfy the requirement with
terminations that did not support their innocence.
Dowell v. Beningﬁeld (1841) 174 Eng. Rep. 384, 384–
85, 388; Carr. & Marsh. 8, 8–9, 15 (conviction by a
court that lacked jurisdiction); Pierce v. Street (1832)

App. 12
110 Eng. Rep. 142, 143; 3 B. & Ad. 397, 399 (dismissal
for want of prosecution).
American courts likewise used the favorabletermination requirement to prevent plaintiffs from attacking criminal proceedings that either were ongoing
or had vindicated the defendant’s accusations. See
Martin L. Newell, A Treatise on the Law of Malicious
Prosecution, False Imprisonment, and the Abuse of
Legal Process 331 (Chi., Callaghan & Co. 1892). Accordingly, plaintiffs could not prevail when the prosecutions against them remained pending, see, e.g.,
Bacon v. Waters, 84 Mass. (2 Allen) 400, 401–02 (1861);
Bacon v. Townsend, 6 Barb. 426, 428–29 (N.Y. Gen.
Term 1849), juries convicted them, see, e.g., Grifﬁs v.
Sellars, 20 N.C. (3 & 4 Dev. & Bat.) 315, 315 (1838), or
they compromised with their accusers and admitted
guilt to end the prosecution, see, e.g., Clark v. Everett, 2
Grant 416, 417 (Pa. 1853). But like their English counterparts, American plaintiffs could prevail without a
favorable termination when the relevant proceedings
against them were ex parte. See, e.g., Swensgaard v.
Davis, 23 N.W. 543, 543 (Minn. 1885); see also Fortman
v. Rottier, 8 Ohio St. 548, 552–53 (1858) (applying this
rule in the context of a civil prosecution).
The clear majority of American courts did not limit
favorable terminations to those that suggested the
accused’s innocence. Only the Supreme Court of Rhode
Island held that the favorable-termination requirement turned on evidence of a plaintiff ’s innocence.
Rounds v. Humes, 7 R.I. 535, 537 (1863) (requiring,
“with reluctance,” that the termination “furnish prima

App. 13
facie evidence that the action was without foundation”)
(quoting Wilkinson v. Howel (1830) 173 Eng. Rep. 1236,
1236; 1 M. & M. 495, 496 (dicta)). Elsewhere, plaintiffs
could prevail even when the termination of the prosecutions against them did not bear on the merits, including when a court dismissed the prosecution after
the accuser failed to appear, see, e.g., Fay v. O’Neill, 36
N.Y. 11, 13 (1867), failed to ﬁle an indictment, see, e.g.,
Murray v. Lackey, 6 N.C. (2 Mur.) 368, 368–69 (1818),
or abandoned the prosecution, see, e.g., Driggs v. Burton, 44 Vt. 124, 143–44 (1871); Brown v. Randall, 36
Conn. 56, 61–63 (1869); Page v. Cushing, 38 Me. 523,
527 (1854); Chapman v. Woods, 6 Blackf. 504, 505–06
(Ind. 1843); Sayles v. Briggs, 45 Mass. (4 Met.) 421,
425–26 (1842); Yocum v. Polly, 40 Ky. (1 B. Mon.) 358,
359 (1841); Burhans v. Sanford, 19 Wend. 417, 418
(N.Y. 1838); Cotton v. Wilson, Minor 203, 203 (Ala.
1824).
Many States also defined the favorable-termination
element without regard to a plaintiff ’s innocence. For
example, the Indiana Supreme Court held that the dismissal of a prosecution at an accuser’s request was a
favorable termination even though “the want of probable cause [was] not spread upon the record.” Chapman,
6 Blackf. at 505. The only requirement, the court reasoned, was that “the original prosecution, wherever instituted, is at an end.” Id. at 506. New York’s highest
court agreed and concluded that “the technical prerequisite” of a favorable termination “is only that the particular prosecution be disposed of in such a manner
that [it] cannot be revived, and the prosecutor must be

App. 14
put to a new one.” Clark v. Cleveland, 6 Hill 344, 347
(N.Y. 1844); see also Fay, 36 N.Y. at 13. And when one
accuser contended that the underlying prosecution
must end with a judicial ﬁnding that probable cause
did not exist, the Iowa Supreme Court held that “nothing” about the favorable-termination element required
the court in the underlying prosecution to ﬁnd “any
precise matter in a certain form.” Paukett v. Livermore,
5 Iowa 277, 282 (1857). Other courts of last resort endorsed similar standards. See Thomas v. De Graffenreid,
11 S.C.L. (2 Nott & McC.) 143, 145 (1819) (“[A] person
may have his action after a bill rejected by the grand
jury, or even where no bill has been preferred, if there
is a final end of the prosecution and the party discharged.”); Murray, 6 N.C. at 369 (holding that a
plaintiff could proceed when he established that “proceedings are at end and cannot be revived”).
The number of States that deﬁned the favorabletermination requirement in a similar manner grew in
the years soon after Congress enacted section 1983.
Decrying the “great injustice” of “refus[ing] a remedy
for such a wanton injury . . . on a ground which is
purely technical,” the Michigan Supreme Court held
that an action for malicious prosecution could continue
“whenever the particular proceeding has come to an
end, so that the prisoner can be no further pursued
upon it.” Stanton v. Hart, 27 Mich. 539, 540 (1873). The
Supreme Court of New Jersey held that “[e]xcept to
confer on the accused the capacity to sue, the manner
in which the prosecution terminated is irrelevant.”
Apgar v. Woolston, 43 N.J.L. 57, 59 (1881). The

App. 15
Supreme Courts of New Hampshire and Kansas
agreed. See Woodman v. Prescott, 22 A. 456, 456–57
(N.H. 1891) (“The law requires only that the particular
prosecution complained of shall have been terminated, and not that the liability of the plaintiff to prosecution for the same offense shall have been
extinguished. . . .”); Marbourg v. Smith, 11 Kan. 554,
562 (1873) (“[I]t is not necessary that there should
have been a trial upon the merits of the alleged malicious prosecution. If the action has been dismissed . . .
that is sufﬁcient, if the action has not been commenced
again.”); see also Kennedy v. Holladay, 25 Mo. App. 503,
517 (1887) (“The essential thing is, that the prosecution, on which the civil action is predicated, should
have come to an end. How it came to an end can make
no difference to the rights of the person injured
thereby.”). The Supreme Court of Nebraska captured
the dominant view of its sister States:
[T]he weight of authority, as well as of reason,
is in favor of the position that the right of action is complete whenever the particular prosecution be disposed of in such a manner that
[it] cannot be revived, and the prosecutor, if he
proceeds further, will be put to a new one.
Casebeer v. Drahoble, 14 N.W. 397, 397 (Neb. 1882) (internal quotation marks omitted). Even Hawai‘i, which
was then an independent kingdom and not a state or
even a territory, followed the same rule, despite the
dissent’s suggestion to the contrary. McCrosson v.
Cummings, 5 Haw. 391, 392 (1885) (“The action for malicious prosecution lies whenever the proceeding has

App. 16
come to an end, whatever may be the form of its termination.” (internal quotation marks omitted)).
To be sure, States did not adopt “perfectly reconcilable” approaches to the favorable-termination requirement, see 1 Francis Hilliard, The Law of Torts or
Private Wrongs 475 (Bos., Little, Brown & Co. 4th ed.
1874), but their disputes reﬂected concerns of ﬁnality,
not whether evidence of innocence existed. For example, courts split over whether a plaintiff received a favorable termination when a grand jury returned a no
bill but the trial court did not dismiss the indictment.
Some courts refused to allow the plaintiff to proceed
because the plaintiff did not receive “a legal discharge”
and “a subsequent grand jury might . . . ﬁnd a bill upon
the same complaint.” Knott v. Sargent, 125 Mass. 95, 98
(1878); accord, e.g., Thomas, 11 S.C.L. at 146. Other
courts held that the plaintiff received a favorable termination when the prosecution had functionally ended
even though a grand jury might still issue an indictment on the same complaint. See, e.g., Woodruff v.
Woodruff, 22 Ga. 237, 245 (1857). These competing
conceptions of an “end” to prosecution created similar
splits over whether a nolle prosequi—a prosecutor’s
record notice that he was ending the prosecution—was
a favorable termination, see Thomas M. Cooley, A Treatise on the Law of Torts 186 & nn.6–7 (Chi., Callaghan
& Co. 1880) (collecting decisions), and over whether a
discharge pursuant to writ of habeas corpus was a favorable termination, compare Walker v. Martin, 43 Ill.
508, 512–13 (1867) (holding that a plaintiff who was
discharged on a habeas writ did not receive a favorable

App. 17
termination because he did not prove that the prosecution itself had ended), with Zebley v. Storey, 12 A. 569,
571–72 (Pa. 1888) (holding that a habeas writ “effectually puts an end to the prosecution . . . although a new
charge may be afterwards made” (internal quotation
marks omitted)).
States instead channeled questions about the effect of the termination of underlying proceedings into
other elements of the tort—ordinarily the probablecause requirement. Some terminations—convictions or
settlements in which the defendant admitted guilt—
were fatal to a plaintiff ’s ability to establish the absence of probable cause. See, e.g., Grifﬁs, 20 N.C. at 315
(holding that a conviction creates conclusive evidence
of probable cause); Morton v. Young, 55 Me. 24, 27
(1867) (holding that a plaintiff who settled a prosecution by paying part of the amount his accuser demanded was estopped from contesting the absence of
probable cause). Courts also debated the evidentiary
effect, if any, that other terminations had on the plaintiff ’s burden to prove the absence of probable cause.
See Newell, supra, at 289–303; see also Annotation,
Acquittal, Discharge, or Discontinuance as Evidence of
Want of Probable Cause in Action for Malicious Prosecution, 24 A.L.R. 261 (1923) (collecting decisions contemporary to the enactment of section 1983). For
example, some states held that a decision by a grandjury to issue an indictment was evidence of probable
cause. See Cooley, supra, at 186. In addition to probable
cause, the nature of a prior termination could affect
whether a plaintiff established damages. See Sears v.

App. 18
Hathaway, 12 Cal. 277, 278–79 (1859) (holding that a
plaintiff who secured an acquittal in the underlying
suit on technical grounds but was “moral[ly] guilt[y]”
of the conduct alleged could not establish reputation
damages).
In the light of this history, we have no trouble discerning a well-settled principle of law to guide our
analysis. Although States disputed whether a prosecution could terminate without a court order, every State
to reach the issue other than Rhode Island agreed that
a prosecution terminated when a court formally dismissed the prosecution and discharged the plaintiff.
And the vast majority of courts to consider the favorable-termination requirement either adopted standards
that excluded considering the merits of the underlying
prosecution or held that particular terminations that
did not evidence plaintiffs’ innocence could satisfy the
requirement. Indeed, outside of Rhode Island, the only
ﬁnal terminations that would bar a plaintiff ’s suit
were those that were inconsistent with a plaintiff ’s innocence—that is, if a jury convicted the plaintiff or if
the plaintiff compromised with his accuser to end the
prosecution in a way that conceded his guilt. So we can
readily discern from that consensus the following principle: a formal end to a prosecution in a manner not
inconsistent with a plaintiff ’s innocence is a favorable
termination.
The dissent does not dispute that only Rhode Island required evidence of a plaintiff ’s innocence to
satisfy the favorable-termination element. It instead
stresses that courts did not agree on all aspects of the

App. 19
element and that no court expressly endorsed the
consensus rule we endorse. According to the dissent,
courts adopted three approaches to the favorabletermination element—“(1) those accepting any termination that discharged the plaintiff . . . (2) those requiring that the termination be such that the claimant
could not be prosecuted further on the same criminal
charge . . . and (3) those requiring a verdict on the merits.” Dissenting Op. at 44. And this disagreement, the
dissent concludes, precludes us from concluding that
any well-settled consensus existed.
We are not persuaded. The dissent overstates the
scope and nature of disagreements over the favorabletermination requirement. Although States disputed
whether a formal termination to proceedings was necessary, they did not split in the manner the dissent
suggests—indeed, the dissent’s three “approaches”
bear no resemblance to the decisions it cites. See id. at
45–50. Accordingly, we ﬁrst correct the dissent’s misunderstanding of the common law before addressing
its remaining arguments.
The dissent incorrectly asserts that multiple
states—Kentucky, Kansas, Michigan, New Jersey, and
New York—required a termination to bar any future
prosecution against the plaintiff for the same crime. Id.
at 46. Each of these States, like many States that the
dissent places in other categories, required only that
the particular prosecution against a plaintiff formally
ended, not that the termination bar all future prosecutions for the same crime. See Apgar, 43 N.J.L. at 66
(holding that a termination is sufﬁcient if it requires

App. 20
the prosecutor to “institute proceedings de novo” to
“proceed further” against the plaintiff ); Marbourg, 11
Kan. at 562 (holding that a dismissal is sufﬁcient if
“the action has not been commenced again”); Stanton,
27 Mich. at 540 (explaining that the favorable-termination element requires only that a “particular proceeding . . . come to an end, so that the [plaintiff ] can
be no further pursued upon it”); Clark, 6 Hill at 347
(concluding that the favorable-termination element is
satisﬁed if the prosecution “cannot be revived, and the
prosecutor must be put to a new one” to continue);
Yocum, 40 Ky. at 359 (concluding that an abandonment
of the prosecution satisﬁed the requirement); see also
Westerstorn v. Dunleavy, 9 Ky. Op. 635, 636 (1877) (stating that a plaintiff needed to establish “at least a discharge from custody” to satisfy the requirement). The
treatise that the dissent cites for this proposition accords with these decisions. See 2 Charles T. Boone,
Forms of Pleadings Under the Codes 273 (S.F., BancroftWhitney Co. 1886) (explaining that a claim of malicious prosecution accrues when the prosecution terminates “in such a manner that it cannot be revived, and
the prosecutor if he proceeds further will be put to a
new one” (emphasis added)). No disagreement existed
at common law about whether a termination needed to
bar all future prosecutions.
Nor did any State require an acquittal. With the
exception of one decision that does not support its argument, the dissent’s conclusion otherwise relies entirely on decisions that suggested in passing dicta that
a plaintiff needed an acquittal to prevail. See Wheeler

App. 21
v. Nesbitt, 65 U.S. 544, 549 (1860) (dicta); Stone v.
Hutchinson, 4 Haw. 117, 123 (1878) (dicta), overruled
by McCrosson, 5 Haw. at 392; Fortman, 8 Ohio St. at
550 (dicta); Bacon v. Towne, 58 Mass. (4 Cush.) 217, 235
(1849) (dicta); Jones v. Kirksey, 10 Ala. 839, 840–41
(1846) (dicta); see also Kirkpatrick v. Kirkpatrick, 39
Pa. 288, 291 (1861) (syllabus of court reporter) (reporting that the trial judge had stated in dicta that an
acquittal was necessary when a prosecution had proceeded to trial). These decisions, which uncritically
echoed the conspiracy writ, did not reﬂect the common
law. When actually faced with a dispute over the favorable-termination requirement, every State the dissent
cites held that a plaintiff could proceed without an acquittal. See, e.g., Zebley, 12 A. at 571–72; McCrosson,
5 Haw. at 392–93; Fortman, 8 Ohio St. at 550 (allowing
a plaintiff to proceed without a jury acquittal in the
underlying civil prosecution and concluding that the
favorable-termination requirement “is the same” when
a claim of malicious prosecution concerns a criminal
prosecution); Long v. Rogers, 17 Ala. 540, 546–47
(1850); Sayles, 45 Mass. at 425–26; Cotton, Minor at
203; see also Stewart v. Sonneborn, 98 U.S. 187, 195
(1878) (stating in dicta that a plaintiff must allege that
“the proceeding . . . has failed”); Cardival v. Smith, 109
Mass. 158, 159 (1872) (listing several terminations
other than an acquittal that could support a suit for
malicious prosecution).
Indeed, other than an abrogated decision from
New York, no State required an acquittal. See M’Cormick
v. Sisson, 7 Cow. 715, 716–17 (N.Y. 1827), abrogated by

App. 22
Fay, 36 N.Y. at 13, Clark, 6 Hill at 346–47, and
Burhans, 19 Wend. at 418; see also Ragsdale v. Bowles,
16 Ala. 62, 64 (1849) (stating in dicta that the favorable-termination element required a court judgment or
a discharge following judicial investigation), overruled
by S. Car & Foundry Co. v. Adams, 32 So. 503, 506 (Ala.
1902). Even treatises that appeared sympathetic to the
acquittal rule, including the treatise the dissent cites,
conceded that the favorable-termination requirement
encompassed more than acquittals. See, e.g., Cooley,
supra, at 186 (stating that the termination must “in
general” be an acquittal but acknowledging several exceptions); 2 Simon Greenleaf, A Treatise on the Law of
Evidence § 452, at 414–15 (John Wilder May ed., Bos.,
Little, Brown & Co. 13th ed. 1876) (adopting a similar
conclusion); 1 Morris M. Estee, Estee’s Pleadings, Practice and Forms § 1791, at 653 (Carter P. Pomeroy ed.,
S.F., Bancroft-Whitney Co. 3d ed. 1886) (“An action for
malicious prosecution can not be maintained until
the plaintiff has been acquitted, or the prosecution is
finally terminated in his favor.” (emphasis added)).
Under an accurate understanding of the common
law, the dissent is left with three reasons to depart
from our position: that some courts opined in dicta that
the favorable-termination element required an acquittal, that no court explicitly advanced the standard we
endorsed, and that courts disagreed over some aspects
of the favorable-termination element. None of these
arguments has merit.
Although we agree that dicta can inform whether
a well-settled rule of law existed when Congress

App. 23
enacted section 1983, the dicta supporting the acquittal rule does not offer meaningful guidance. To start,
one of the states the dissent cites never suggested that
an acquittal was an element of malicious prosecution,
see Kirkpatrick, 39 Pa. at 298–99, and the Kingdom of
Hawai‘i did so only in short-lived dicta after Congress
enacted section 1983, see Stone, 4 Haw. at 123, overruled by McCrosson, 5 Haw. at 392. More importantly,
no decision to actually opine that an acquittal was necessary justiﬁed its dicta, much less reasoned that an
acquittal was necessary because it provided evidence
of a plaintiff ’s innocence. And as discussed, every State
to reach the issue, including each State the dissent
cites, held that plaintiffs could proceed without an acquittal. See generally Bryan A. Garner et al., The Law
of Judicial Precedent § 4, at 69 (2016) (“Dictum should
never be taken as determining an issue of law when it
conﬂicts with a holding on point. . . .”); id. § 18, at 176
(explaining that the persuasiveness of an ancient decision “depends on the degree to which its underlying
principles have been buttressed or weakened by later
cases and events”). When weighed against the mountain of caselaw to the contrary, the unreasoned dicta
that the dissent marshals does not change our view.
We also see no problem with deriving a commonlaw principle from multiple bodies of well-established
decisions. That common-law courts did not explicitly
reject the indication-of-innocence approach hardly indicts our conclusion—courts outside of Rhode Island
did not resolve the issue because no defendant asked
them to do so, which strongly suggests that the

App. 24
approach was almost entirely unknown when Congress enacted section 1983. And as explained, the principle we discern from the common law—that a formal
end to a prosecution in a manner not inconsistent with
a plaintiff ’s innocence is a favorable termination—
closely tracks the dominant approaches to the favorable-termination requirement.
Finally, we cannot agree that “there was no wellsettled principle of law to glean from the time § 1983
was enacted” because States did not agree about every
aspect of the favorable-termination requirement. Dissenting Op. at 50. The dissent asks far too much of
precedent when determining whether a “well-settled
principle” existed at common law. For example, the Supreme Court had no trouble concluding that the probable-cause element of malicious prosecution was well
settled at common law, Nieves, 139 S. Ct. at 1726, even
though States disputed the evidentiary effect that certain favorable terminations had on this element, see
Newell, supra, at 289–303. Similarly, we are satisﬁed
that the principle we discern from the common law reﬂects an area of consensus between nearly every State,
even if some States held that plaintiffs satisﬁed the favorable-termination requirement in additional circumstances.
In sum, whether a particular termination afﬁrmatively supported a plaintiff ’s innocence was not material to the favorable-termination element in the vast
majority of States. As common-law courts on both
sides of the Atlantic stressed, a termination on technical grounds did not cure the harm that malicious

App. 25
prosecution caused. See, e.g., Stanton, 27 Mich. at 540
(“The mischief is done by the arrest and disgrace
caused by a charge of crime, and by the expense and
annoyance attending the proceeding. A discharge
without a trial does not destroy the effect of the mischief. . . .”); Wicks v. Fentham (1791) 100 Eng. Rep.
1000, 1000; 4 T.R. 247, 248 (“[A] bad indictment
serve[s] all the purposes of malice, by putting the party
to expense and exposing him“ (internal quotation
marks omitted)). Instead, the favorable-termination
requirement prevented plaintiffs from using the tort to
collaterally attack ongoing criminal proceedings or unfavorable terminations. See Newell, supra, at 331. And
under prevailing standards, a plaintiff could satisfy
the favorable-termination element of malicious prosecution by proving that a court formally ended the prosecution in a manner that was not inconsistent with his
innocence.
Because section 1983 is not merely “a federalized
amalgamation of preexisting common-law claims,”
Rehberg, 566 U.S. at 366, we must determine whether
this common-law understanding comports with relevant constitutional principles, Williams, 965 F.3d at
1159–60. Here, nothing in the Fourth Amendment supports departing from the weight of the common law. A
claim of malicious prosecution under the Fourth
Amendment is only “shorthand” for a claim of deprivation of liberty pursuant to legal process, so the validity
of these claims depends on whether the seizure was
justiﬁed, not whether the prosecution itself was justiﬁed, see Williams, 965 F.3d at 1157–59 (internal

App. 26
quotation marks omitted). That question almost always turns on whether the judicial ofﬁcer who authorized the seizure had sufﬁcient information before him
to support the seizure. See Williams, 965 F.3d at 1162–
65. Conversely, limiting favorable terminations to
those that afﬁrmatively support a plaintiff ’s innocence
redirects the focus to whether the entire prosecution
was justiﬁed. In other words, the “indication-of-innocence” approach to favorable terminations considers
the wrong body of information. Cf. Garmon v. Lumpkin
Cnty., 878 F.2d 1406, 1409 (11th Cir. 1989) (“A subsequent indictment does not retroactively provide probable cause for an arrest that has already taken place.”).
The Fourth Amendment does not require plaintiffs to
support their innocence with such a narrow, inapposite
source of evidence.
Because “the Fourth Amendment protects against
‘searches’ and ‘seizures’ (and not ‘prosecutions’),” Whiting, 585 F.3d at 584, the favorable-termination requirement functions as a rule of accrual, not as a criterion
for determining whether a constitutional violation occurred. Indeed, we have never considered the requirement outside of the accrual context. See Uboh, 141 F.3d
at 1006 (holding that the plaintiff ’s claim was timely
because the plaintiff had pleaded that he received a favorable-termination within the statute of limitations);
Whiting, 85 F.3d at 585–86 (holding that the plaintiff ’s
claim was timely because it accrued when the court
dismissed the remaining charges against the plaintiff ). In the light of this limited role, the favorable-termination requirement will bar a suit for malicious

App. 27
prosecution only when the prosecution remains ongoing or terminates in a way that precludes any ﬁnding
that the plaintiff was innocent of the charges that justiﬁed his seizure—that is, when the prosecution ends
in the plaintiff ’s conviction on or admission of guilt to
each charge that justiﬁed his seizure. See Uboh, 141
F.3d at 1005 (holding that a plaintiff received a favorable termination even though the plaintiff was convicted on some charges because the prosecutor’s
dismissal of the other charges was “consistent with . . .
a ﬁnding of innocence on these speciﬁc counts”); see
also Williams, 965 F.3d at 1165 (holding that a plaintiff
“need only prove that probable cause was absent for at
least one of the . . . charges that justiﬁed his seizure”).
In other words, a plaintiff can satisfy the favorable-termination requirement by proving that the prosecution
against him formally ended in a manner not inconsistent with his innocence on at least one charge that
authorized his conﬁnement.
The ofﬁcials and dissent contend that our decision
in Uboh v. Reno, 141 F.3d 1000, forecloses this conclusion, see Dissenting Op. at 52–53, but they misread
that opinion. To be sure, Uboh prevents us from adopting the common-law exception to the favorable-termination requirement for ex parte proceedings, see id. at
1005–06 (holding that the favorable-termination requirement is an element of claims of malicious prosecution under the Fourth Amendment), which might
otherwise apply to warrant hearings, see Gerstein v.
Pugh, 420 U.S. 103, 120 (1975) (holding that an adversary hearing is not required to justify a pretrial

App. 28
detention). But Uboh does not otherwise restrict the
favorable-termination element. As part of its survey of
approaches to the favorable-termination requirement,
Uboh explained that other courts had required terminations to provide evidence of the accused’s innocence
and mentioned in passing dicta that the dismissal before it would meet that standard, but it did not endorse
that or any particular approach. 141 F.3d at 1004–05.
Indeed, Uboh suggested in dicta that a dismissal as untimely would be a favorable termination. Id. at 1005.
We acknowledge that our conclusion departs from
the consensus of our sister circuits, but we do not agree
with the dissent that these decisions should alter our
conclusion. To start, the dissent miscounts the circuits
that have adopted the indication-of-innocence approach to claims of malicious prosecution under the
Fourth Amendment. Although seven circuits have done
so, see Jordan, 943 F.3d at 545–46; Lanning, 908 F.3d
at 26; Donahue, 280 F.3d at 383; Salley, 2020 WL
4664808, at *3–4; Jones, 959 F.3d at 763–64; Awabdy,
368 F.3d at 1068; Cordova, 816 F.3d at 651, the dissent
erroneously relies on decisions applying state or local
tort law to conclude that the Fifth, Seventh, and District of Columbia Circuits followed suit. See Lemoine v.
Wolfe, 812 F.3d 477, 479 (5th Cir. 2016) (applying Louisiana tort law); Logan v. Caterpillar, Inc., 246 F.3d 912,
925 (7th Cir. 2001) (applying Illinois tort law); Whelan
v. Abell, 953 F.2d 663, 669 (D.C. Cir. 1992) (applying
D.C. tort law). Indeed, the Seventh Circuit has held
that a Fourth Amendment claim for unlawful pretrial
detention does not require any favorable termination.

App. 29
See Manuel, 903 F.3d at 670. More importantly, when
considering the decisions of our sister circuits, “[w]e
are not merely to count noses. The parties are entitled
to our independent judgment.” Fed. Trade Comm’n v.
Credit Bureau Ctr., LLC, 937 F.3d 764, 785 (7th Cir.
2019) (internal quotation marks omitted). And the justiﬁcation that our sister circuits offered for the consensus view is unpersuasive.
Each circuit to embrace the indication-of-innocence
approach grounded its decision in a comment in the
Restatement (Second) of Torts or the modern decisions
of States that adopted that comment. See Restatement
(Second) of Torts § 660 cmt. a (Am. L. Inst. 1977) (“Proceedings are ‘terminated in favor of the accused’ . . .
only when their ﬁnal disposition is such as to indicate
the innocence of the accused.”); see also Restatement
(First) of Torts § 660 cmt. a (Am. L. Inst. 1938) (stating
the same). It is far from clear that the Second Restatement reﬂects even a modern consensus. See Restatement (Third) of Torts: Liability for Economic Harm
§ 23 cmt. a & n.a (Am. L. Inst. 2020) (acknowledging a
split in authority, rejecting the indication-of-innocence
requirement, and endorsing a “not-inconsistent-withinnocence” approach). Indeed, two of the three states
in this Circuit, including the one in which Laskar’s
seizure and prosecution occurred, do not require an
indication of innocence. Compare Vadner v. Dickerson,
441 S.E.2d 527, 528 (Ga. Ct. App. 1994) (holding that a
dismissal on jurisdictional grounds is a favorable termination if the prosecutor does not recommence the
prosecution), and Kroger Co. v. Puckett, 351 So. 2d 582,

App. 30
585–86 (Ala. Civ. App. 1977) (rejecting the approach in
the Second Restatement (citing Adams, 32 So. 503)),
with Alamo Rent-A-Car, Inc. v. Mancusi, 632 So. 2d
1352, 1356 (Fla. 1994) (requiring a termination “that
indicates the innocence of the accused”).
Setting this issue aside, modern common law is
not the touchstone when deﬁning a claim under section
1983. “[T]he Supreme Court has clariﬁed that the relevant common-law principles are those that were ‘well
settled at the time of section 1983’s enactment.’ ” Williams, 965 F.3d at 1159 (alteration adopted) (quoting
Nieves, 139 S. Ct. at 1726); see also Kalina v. Fletcher,
522 U.S. 118, 123 (1997) (explaining that section 1983
must be “construed in the light of common-law principles that were well settled at the time of its enactment”). Although the Restatements and modern
treatises often reﬂect ancient legal principles, the indication-of-innocence approach to favorable terminations has no such pedigree. And we cannot base our
decision on common-law doctrines that developed long
after Congress enacted section 1983.
The dissent next faults us for attempting to
“square the tort of malicious prosecution with the
Fourth Amendment,” Dissenting Op. at 58, and we
readily plead guilty to that charge. Although the dissent acknowledges that the Fourth Amendment does
not neatly overlap with the tort of malicious prosecution, it nonetheless contends that we must adhere to
the common law. Id. at 57–59. This argument turns our
approach to malicious prosecution on its head. Our oldest decisions on the subject explained that “malicious

App. 31
prosecution” is only a “shorthand way of describing”
certain claims for unlawful seizure, not an “independent Fourth Amendment right . . . to be free from a malicious prosecution.” Whiting, 85 F.3d at 584; see also
Kelly, 21 F.3d at 1553–55 (reversing a summary judgment against the plaintiff on a claim of malicious
prosecution under the Fourth Amendment without
considering whether the plaintiff satisfied the common-law elements). More recently, the Supreme Court
has explained that “[c]ommon-law principles are
meant to guide rather than to control the definition of
§ 1983 claims” and that we must “closely attend” to the
“constitutional right at issue” when deﬁning these
claims. Manuel, 137 S. Ct. at 921. To give priority to the
common law over the Fourth Amendment, we would
need to depart from both our earliest decisions on the
subject and the decisions of the Supreme Court. Of
course, we cannot do so.
Finally, the dissent highlights the ostensible policy
beneﬁts of the indication-of-innocence approach, such
as the “additional opportunity” it could create “for
courts to stop false claims” at the pleading stage instead of at summary judgment, Dissenting Op. at 61,
but we fail to see how the operation of the Federal
Rules of Civil Procedure is relevant to our analysis of
the Fourth Amendment. See Wallace, 549 U.S. at 390–
95 (holding that a Fourth Amendment claim for unlawful seizure without process does not require a favorable
termination). We must adhere to the clear commands
of the law instead of favoring an alternative policy of
judicial economy. See Sorenson v. Sec’y of Treasury, 475

App. 32
U.S. 851, 865 (1986) (“The ordering of competing social
policies is a quintessentially legislative function.”).
We need not redeﬁne the favorable-termination
requirement to provide extra protection for defendants
accused of malicious prosecution. The probable-cause
requirement already limits meritless claims by placing
the burden on the plaintiff to establish “(1) that the legal process justifying his seizure was constitutionally
inﬁrm and (2) that his seizure would not otherwise be
justiﬁed without legal process.” Williams, 965 F.3d at
1165. On top of that, the plaintiff must overcome qualiﬁed immunity by proving that the absence of probable
cause was clearly established. Id. at 1168–70. And a
plaintiff seized without probable cause must prove he
suffered an injury to recover compensatory damages
for the speciﬁc charges he says were unfounded. See id.
at 1161–62, 1168.
After considering both the common law and
Fourth Amendment, we hold that the favorable-termination element of malicious prosecution is not limited
to terminations that afﬁrmatively support the plaintiff ’s innocence. Instead, the favorable-termination element requires only that the criminal proceedings
against the plaintiff formally end in a manner not inconsistent with his innocence on at least one charge
that authorized his conﬁnement. A formal end to criminal proceedings will satisfy this standard unless it
precludes any ﬁnding that the plaintiff was innocent of
the charges that justiﬁed his seizure, which occurs only
when the prosecution ends in the plaintiff ’s conviction
on or admission of guilt to each charge that justiﬁed

App. 33
his seizure. Because Laskar’s complaint alleges that
the prosecution against Laskar formally terminated
and does not allege that he was convicted or that he
admitted his guilt to each charge that justiﬁed his seizure, Laskar has alleged that he received a favorable
termination.
B. Laskar Alleged that Hurd and Jenkins, but Not
Allen and Garton, Initiated the Warrant Proceedings
Without Probable Cause and with Malice.
The ofﬁcials contend that Laskar failed to allege
that they initiated criminal proceedings against him
“with malice and without probable cause” under the
common-law elements of our standard. Paez, 915 F.3d
at 1285 (internal quotation marks omitted). Although
some of our precedents were inconsistent on the standards of probable cause and subjective intent that
apply to a claim of malicious prosecution, compare, e.g.,
Kjellsen, 517 F.3d at 1238, and Kingsland, 382 F.3d at
1234–35 (dicta), with, e.g., Kelly, 21 F.3d at 1554–55,
we recently reconciled them, see Williams, 965 F.3d at
1162–65. Because a claim of malicious prosecution concerns seizures pursuant to legal process, we consider
whether the judicial ofﬁcer who issued the legal process had sufﬁcient truthful information to conclude
that probable cause existed. Id. at 1162–65. In the context of an arrest warrant, the plaintiff must establish
either “that the ofﬁcer who applied for the warrant
should have known that his application failed to establish probable cause” or “that an official, including
an individual who did not apply for the warrant,

App. 34
intentionally or recklessly made misstatements or
omissions necessary to support the warrant.” Id. at
1165.
This standard governs whether a defendant initiated criminal process “with malice and without probable cause” under the common-law elements of our
standard for malicious prosecution. Id. at 1157 (internal quotation marks omitted). Regardless of commonlaw analogues, a challenge to “pretrial detention unsupported by probable cause . . . lies in the Fourth
Amendment.” Manuel, 137 S. Ct. at 919. And Williams
clariﬁed the standards for probable cause and subjective intent that the Fourth Amendment requires for
the seizures involved in claims of malicious prosecution. See 965 F.3d at 1165. Even setting Williams aside,
adopting multiple standards of probable cause and
subjective intent would demand more of plaintiffs than
the Constitution requires. We cannot do so. See Manuel, 137 S. Ct. at 921 (“Common-law principles are
meant to guide rather than to control the deﬁnition of
§ 1983 claims. . . .”).
Our standard produces mixed results for Laskar.
To establish that the ofﬁcials initiated criminal proceedings against him without probable cause, he must
allege that each ofﬁcial made false statements or omitted information “either intentionally or in reckless
disregard for the truth” and that “after deleting the
misstatement[s], the [warrant] afﬁdavit is insufﬁcient
to establish probable cause.” Williams, 965 F.3d at
1165 (internal quotation marks omitted). Laskar has
met this burden as applied to Hurd and Jenkins, but

App. 35
he has not done so for Allen and Garton. We take each
pair of ofﬁcials in turn.
Laskar easily satisﬁes his burden to allege that
Hurd and Jenkins initiated criminal proceedings
against him without probable cause. Laskar’s complaint alleges that the afﬁdavit that secured the arrest
warrant against him relied entirely on Hurd and the
audit report that Hurd and Jenkins produced. The
complaint also alleges that the accusations in the afﬁdavit were not only false, but knowingly or recklessly
so. For example, the afﬁdavit accused Laskar of using
funds from Georgia Tech to pay for fully functional microchips that he then sold to financially benefit Sayana,
even though Hurd and his audit team knew that Sayana
had never sold microchips and had no evidence that
Laskar had ever taken or used microchips. Finally,
Laskar does not allege that the warrant contained any
true accusations—his complaint mentions only false
or materially incomplete allegations. So after excluding the alleged misstatements, we must conclude that
the warrant afﬁdavit lacked any factual basis to support probable cause. See St. George v. Pinellas Cnty.,
285 F.3d 1334, 1337 (11th Cir. 2002) (reiterating that
our analysis is “limited to the four corners of the complaint” and that we must draw all reasonable inferences in the plaintiff ’s favor). “Of course, an afﬁdavit
does not support probable cause if it lacks any facts
that suggest a crime occurred.” Williams, 965 F.3d at
1166–67.
Conversely, Laskar has failed to allege that Garton and Allen initiated the warrant proceedings

App. 36
against him without probable cause. Laskar’s complaint does not allege that either ofﬁcial intentionally
or recklessly made false statements to support the
warrant for his seizure. Indeed, his complaint disclaims that possibility. According to the complaint, the
warrant afﬁdavit qualiﬁed that “[u]nless otherwise indicated, all facts presented herein are derived from
[the submitting agent’s] conversations and communications with Mr. Hurd.” The only other source of information the afﬁdavit cited was Hurd and Jenkins’s
audit report. Although Laskar’s complaint alleges that
he later faced a second form of legal process—the indictment four years after his initial seizure—he disclaimed at oral argument that he was seized pursuant
to that process. Oral Argument at 12:07–:16 (July 29,
2020). And in any event, Laskar’s complaint does not
allege that either Allen or Garton made false statements to support the indictment. Without alleging that
Allen or Garton intentionally or recklessly made false
statements to support the legal process justifying his
seizure, Laskar’s claims against them fail.
In short, Laskar has alleged that Hurd and Jenkins,
but not Allen and Garton, initiated criminal process
against him without probable cause and with malice.
Because Laskar’s claims against Allen and Garton cannot proceed, we do not consider their other arguments.
We instead turn to Hurd and Jenkins’s remaining arguments for afﬁrmance.

App. 37
C. Laskar Alleged that Hurd and Jenkins
Caused His Seizure.
Hurd and Jenkins next argue that Laskar has
not alleged causation because his indictment was too
attenuated from their accusations, but Williams v.
Aguirre forecloses this argument. In Williams, we held
that “the relevant injury” for a claim of malicious prosecution under the Fourth Amendment, “is the seizure
that followed the arrest warrant, not the broader prosecution.” 965 F.3d at 1167. Further, we held that a
plaintiff establishes causation if he proves that a defendant’s false statements were material to his seizure
pursuant to legal process. Id. Laskar has satisﬁed this
burden, so he has established causation.
D. Laskar Alleged that Hurd and Jenkins Violated
His Clearly Established Right To Not Be Seized
Based on Intentional and Material Misstatements
in a Warrant Application.
Because Hurd and Jenkins invoked qualiﬁed immunity, Laskar must also establish that they violated
a constitutional right of his that was “clearly established” when they caused his seizure. Kjellsen, 517 F.3d
at 1237 (internal quotation marks omitted). “ ‘Clearly
established’ means that, at the time of the ofﬁcer’s conduct, the law was sufﬁciently clear that every reasonable ofﬁcial would understand that what he is doing is
unlawful.” Wesby, 138 S. Ct. at 589 (internal quotation
marks omitted). “A constitutional right is clearly established only if ‘every reasonable ofﬁcial would interpret
controlling precedent to establish the particular right

App. 38
the plaintiff seeks to apply’ and ‘the unlawfulness of
the ofﬁcer’s conduct follows immediately from the conclusion that the right was ﬁrmly established.’ ” Williams, 965 F.3d at 1168 (alterations adopted) (quoting
Wesby, 138 S. Ct. at 590).
Laskar has alleged that Jenkins and Hurd violated clearly established law. This Court has long held
that ofﬁcials violate the Fourth Amendment if they
knowingly or recklessly make “false statements in an
arrest afﬁdavit about the probable cause for an arrest
in order to detain a citizen . . . if such false statements
were necessary to the probable cause.” Jones v. Cannon,
174 F.3d 1271, 1285 (11th Cir. 1999); see also Franks v.
Delaware, 438 U.S. 154, 155–56 (1978). And if we accept Laskar’s allegations as true and draw all reasonable inferences in his favor, Hurd’s and Jenkins’s
liability “follow[s] immediately from the conclusion
that [the right] was ﬁrmly established.” Wesby, 138
S. Ct. at 590 (internal quotation marks omitted). Laskar
alleges that they knowingly or recklessly made the
false accusations against him that formed the basis of
the warrant afﬁdavit. And because Laskar’s complaint
does not allege that any statements in the warrant afﬁdavit were both truthful and materially complete, we
must assume that the afﬁdavit contained no other
facts that could support probable cause. So Hurd’s and
Jenkins’s accusations were also “necessary to the probable cause.” Jones, 174 F.3d at 1285; see also Garmon,
878 F.2d at 1410 (holding that a warrant affidavit
that “contained no facts whatever” cannot form a reasonable basis for probable cause). Because Laskar has

App. 39
alleged that Hurd and Jenkins violated his clearly established rights under the Fourth Amendment, they
are not entitled to qualiﬁed immunity at this stage of
the suit.
IV.

CONCLUSION

We AFFIRM the dismissal of Laskar’s claims
against Allen and Garton but REVERSE the dismissal of his claims against Hurd and Jenkins, DENY as
moot his motion to supplement the record with a copy
of his arrest warrant, DENY as moot the appellees’
motion for supplemental brieﬁng, and REMAND for
further proceedings consistent with this opinion.

K. MICHAEL MOORE, Chief District Judge, dissenting:
Today, the majority adopts a legal standard for the
favorable termination element of a 42 U.S.C. § 1983
malicious prosecution claim that pushes us out-of-step
with our sister circuits and requires the Court to depart from its well-founded opinion in Uboh v. Reno, 141
F.3d 1000 (11th Cir. 1998). The majority contends that
(1) it is bound to reject the indication of innocence
standard by a review of “well-settled” common-law
principles at the time of § 1983’s passage, and (2) the
majority’s proposed standard better serves the constitutional concerns implicated by § 1983 and the Fourth
Amendment. I dissent because there was no “wellsettled” common-law principle as to what was required
of a malicious prosecution claimant to meet the

App. 40
favorable termination element in the late 19th century.
Further, the rule adopted by majority is an inadequate
ﬁlter for meritless claims.
I.

LEGAL FRAMEWORK

The majority correctly relies on Nieves v. Bartlett
for the proposition that a court must look to commonlaw principles that were well-settled in 1871 when “deﬁning the contours” of a tort under § 1983. 139 S. Ct.
1715, 1726, 204 L. Ed. 2d 1 (2019). However, a court
need not “adopt wholesale the rules that would apply
in a suit” in common-law. Manuel v. Cty. of Joliet, 137
S. Ct. 911, 920–21, 197 L. Ed. 2d 312 (2017). Rather, after successfully identifying a common-law principle
that was well-settled in 1871, a court is tasked with
determining “whether that rule is compatible with the
constitutional provision at issue.” Williams v. Aguirre,
965 F.3d 1147, 1159–60 (11th Cir. 2020) (citing Manuel,
137 S. Ct. at 921).
The Court applied this framework in Williams to
determine whether “claims of malicious prosecution
are subject to the any-crime rule, which insulates ofﬁcers from false-arrest claims so long as probable cause
existed to arrest the suspect for some crime, even if it
was not the crime that the ofﬁcer thought or said had
occurred.” Id. at 1158. The Court opined that its sister
circuits were split on the matter and noted that the
Court had not yet resolved the issue as it related to
§ 1983 malicious prosecution. Id. at 1159. Accordingly,
the Court traced the history of the probable cause

App. 41
element from English common-law to American courts’
and legal scholars’ application of the tort in the nineteenth century. Id. at 1160–61. In so doing, the Court
determined that at the time of § 1983’s enactment,
there was a well-settled legal principle that a malicious prosecution defendant could not “shield [himself
or herself ] from liability by establishing probable
cause for other charges.” Id. at 1160 (citations omitted).
Then, the Court determined that applying the common-law rule, rather than the any-crime rule, was not
prohibited by the constitutional considerations in
§ 1983. Id. at 1161.
II.

NO WELL-SETTLED COMMON
LAW PRINCIPLE

The majority has attempted to re-create the Williams analysis in this case. However, the history of the
favorable termination requirement is a square peg
that does not ﬁt into the round hole that is Williams.
First, there is no “well-settled” common-law principle
as to what a malicious prosecution claimant had to
aver to satisfy the favorable termination requirement.
While I concede that courts in most states would permit a claim where the plaintiff ’s prosecution ended in
any termination whereby the claimant was either discharged or could not be subject to further prosecution
on the same charge, several courts required far more.
Thus, while the Court was able to identify a wellsettled principle that foreclosed the any-crime rule in
Williams, no such well-settled principle can be found
with respect to the favorable termination requirement.

App. 42
Second, and unlike in Williams, the Court has already
embraced this issue in Uboh. Third, there is no difference in opinion between circuits on whether the
favorable termination element requires that the termination indicate the plaintiff ’s innocence in some
way.
As an initial matter, the majority looks to 19th
century legal principles to determine whether it was
well-settled that a favorable termination requires
some indication of innocence. However, Nieves does not
merely require the Court to compare the modern rule
to 19th century jurisprudence to determine whether
the two comport. Rather, the pertinent inquiry is
whether there was a well-settled principle at the time
§ 1983 was enacted. Despite this, the majority ﬁnds
that there is a well-settled principle because most
courts did not consider innocence while discounting
other differences in the jurisprudence. While those
courts might not have taken innocence into account, it
is not dispositive of the question before the Court.
Based on my own review of 19th century jurisprudence, I ﬁnd that the majority of cases that embraced
the question of what constitutes a favorable termination fall into three categories: (1) those accepting any
termination that discharged the plaintiff (“Discharged
Cases”); (2) those requiring that the termination be
such that the claimant could not be prosecuted further
on the same criminal charge (“Jeopardy Cases”); and
(3) those requiring a verdict on the merits (“Merits
Cases”). Looking to secondary sources from the time
period does not square these competing theories; in

App. 43
fact, some acknowledged the lack of cohesion between
courts on the issue. In today’s Majority Opinion, the
majority performed logical and legal gymnastics to the
same set of cases and sources to reach the conclusion
that the “vast majority” of courts were in agreement.
Op. at 25. However, a sterile analysis reveals that no
harmony existed between the courts on the issue.
Discharged Cases make up the largest pool, and
best support the rule set forth by the majority. These
cases tend to have less analysis to support the proposition that any end short of a guilty plea or verdict is a
sufﬁcient end. C.f. II FRANK S. RICE, GENERAL PRINCIPLES OF THE LAW OF EVIDENCE WITH THEIR APPLICATION
TO THE TRIAL OF CIVIL ACTIONS AT COMMON LAW, IN
EQUITY AND UNDER THE CODES OF CIVIL PROCEDURE OF
THE SEVERAL STATES 1062 (Rochester, The Lawyers’ CoOperative Publishing Co. 1892). Indiana, Oregon,
Maine, Tennessee, South Carolina, West Virginia, Connecticut and Iowa applied this straightforward rule.
See Vinal v. Core, 18 W. Va. 1, 2 (1881) (holding that
the termination need not bar any subsequent prosecution for the same alleged crime, but merely that the
“particular prosecution was ended”); Merriman v. Morgan, 7 Or. 68, 73 (1879) (“[I]t [is] necessary for the appellant to allege that the proceeding against him of
which he complained was finally terminated by his
discharge or acquittal of the offense charged against
him.”); Brown v. Randall, 36 Conn. 56, 62–63 (1869)
(rejecting reasoning that a termination must foreclose
subsequent prosecution on the charge, and holding
that “when a prosecution has been abandoned, . . .

App. 44
without any arrangement with the accused [or] any request from him that it should be so abandoned,” the
favorable termination element is met); Paukett v. Livermore, 5 Clarke 277, 282 (Iowa 1857) (“It [is] sufﬁcient
if [the judge] discharged the accused; and there is nothing demanding that it appear, that he found any precise matter in a certain form.”); Page v. Cushing, 38 Me.
523, 527 (1854) (“In an action for a malicious criminal
prosecution, the plaintiff may show that the prosecution has terminated without proving an acquittal; as
that it has been abandoned . . . before his arraignment,
or before he has been required to plead.”); Chapman v.
Woods, 6 Blackf. 504, 506 (Ind. 1843) (“If it be shown
that the original prosecution, wherever instituted, is at
an end, it will be sufﬁcient”); Thomas v. De Graffenreid,
11 S.C.L. (2 Nott. & McC.) 143, 145 (S.C. 1819) (“It is
not to be understood, that an action, for a malicious
prosecution, will not lie unless the party has been acquitted by a jury on trial. On the contrary, a person
may have his action . . . if there is a ﬁnal end of the
prosecution and the party discharged.”).
Jeopardy Cases differ materially from Discharged
Cases. They interpret the favorable termination element to be met wherever “the criminal prosecution is
disposed of in such a manner that it cannot be revived.”
II CHARLES T. BOONE, FORMS OF PLEADINGS UNDER THE
CODES WITH FULL REFERENCES TO THE AUTHORITIES 273
(San Francisco, Bancroft-Whitney Co. Law Publishers
and Law Booksellers 1886); see also MELVILLE M. BIGELOW, ELEMENTS OF THE LAW OF TORTS FOR THE USE OF
STUDENTS 76 (3d ed., Boston, Little, Brown, and

App. 45
Company 1878) (noting that for the purposes of malicious prosecution, “[a] dismissal [after the petit jury
has been sworn] is a virtual acquittal, since a person
cannot be put twice in jeopardy for the same offence”).
The caselaw indicates that this was the standard in
Kentucky, Kansas, Michigan, New Jersey, and New
York. See Apgar v. Woolston, 43 N.J.L. 57, 65–66 (N.J.
1881) (noting the “considerable diversity of views with
regard to the nature of the decision or determination
which shall be considered a ﬁnal termination of the
prosecution,” but holding that “the technical prerequisite is only that the particular prosecution be disposed
of in such a manner that it cannot be revived”); Blair
v. Meshew, 7 Ky. Op. 103, 103 (Ky. 1873) (“It must also
appear that there has been a ﬁnal termination of the
prosecution against him resulting in his favor, an acquittal or discharge, so that no further prosecution can
be had.”); Marbourg v. Smith, 11 Kan. 554, 562 (1873)
(“If the action has been dismissed . . . that is sufﬁcient,
if the action has not been commenced again.”); Stanton
v. Hart, 27 Mich. 539, 539–40 (1873) (acknowledging
“some conﬂict in the authorities” but determining that
a malicious prosecution claim can be had upon the
criminal proceedings having “come to an end, by such
an order or discontinuance as will prevent a further
prosecution without a new complaint”); Thomason v.
Demotte, 18 How. Pr. 529 (N.Y. Sup. Ct. 1859) (“[I]t is
essential that the complaint should show that the alleged malicious prosecution has been terminated by
the plaintiff ’s acquittal, or in such way that no further
proceedings upon it can be had against him.”).

App. 46
The Acquittal Cases require that a plaintiff aver
the following to establish a favorable termination:
[that] the plaintiff has been acquitted. . . . The
determination of the prosecuting ofﬁcer never
to bring the indictment to trial, for the reason
that he deems the charge entirely unsupported is not sufﬁcient. The plaintiff ’s acquittal must be alleged. An allegation that he has
been discharged is not sufﬁcient. It is not
enough to aver that the prosecuting ofﬁcer declared the complaint frivolous, and refused to
try it.
I MORRIS M. POMEROY ESTEE & CARTER P. POMEROY, ESTEE’S PLEADINGS, PRACTICE AND FORMS, ADAPTED TO
ACTIONS AND SPECIAL PROCEEDINGS UNDER CODES OF
CIVIL PROCEDURE 653 (3d ed., San Francisco, BancroftWhitney Co., Law Publishers and Law Booksellers
1886). A merits acquittal was required in the Kingdom
of Hawai‘i, Alabama, Pennsylvania, Ohio and Massachusetts, and considered to be the standard by the Supreme Court. See Wheeler v. Nesbitt, 65 U.S. 544, 549
(1860) (“To support an action for malicious prosecution
the plaintiff must prove [that the prosecution] ﬁnally
terminated in his acquittal.”); Stone v. Hutchinson, 4
Haw. 117, 124 (1878) (“[T]he proposition that it is necessary in an action for malicious prosecution to show
that the previous action terminated in an acquittal of
the plaintiff, is so well established as not to be open for
debate.”); Kirkpatrick v. Kirkpatrick, 39 Pa. 288, 291,
299 (1861) (afﬁrming the judgment of the trial court
declaring nonsuit in a malicious prosecution claim
where the plaintiff ’s conviction was arrested and

App. 47
discharged and ﬁnding that “nothing short of an acquittal will answer where the prosecution has progressed to a trial by a petit jury”); Fortman v. Rottier,
8 Ohio St. 548, 550 (Ohio 1858) (“In an action for a malicious prosecution . . . upon a criminal charge, it is well
settled that the prosecution must be shown to be at an
end; and it must also appear that the plaintiff was acquitted of the charge.”); Bacon v. Towne, 58 Mass. (4
Cush.) 217, 235 (1849) (“It must appear, before this action will lie, that the defendant in the indictment has
been fully acquitted.”); Jones v. Kirksey, 10 Ala. 839,
840–41 (1846) (acknowledging “apparent conﬂict in the
cases” on the issue but opining, “[t]he general rule is,
when the action is for a malicious prosecution on account of an alledged [sic] criminal offence, that the declaration must show the prosecution is ended and
determined by the acquittal and discharge of the party
accused”).
One state court actually applied a standard almost
perfectly analogous to the indication of innocence in
the years immediately preceding § 1983’s passage. In
Rounds v. Humes, the Supreme Court of Rhode Island
considered a malicious prosecution case where the
plaintiff and defendant/prosecutor had met during the
pendency of the prosecution and “settled their respective claims.” 7 R.I. 535, 537 (1863). The court set forth
the rule that a plaintiff must allege “not only that the
proceeding complained of is terminated, but the
manner in which it has been terminated . . . must be
such as to furnish prima facie evidence that the action
was without foundation.” Id. (internal citation and

App. 48
quotation marks omitted). Accordingly, the court reversed the verdict in favor of the plaintiff because he
“not only failed to prove what was necessary to maintain his declaration, but proved the precise contrary of
it.” Id. at 538.
Ultimately, the practical difference between the
approaches presented above is of little importance. I
group the cases together in the manner above to illustrate how far apart the competing approaches to the
favorable termination requirement were in the late
19th century. To complicate matters further, I highlight
both where courts opined that their rule was “wellsettled” and where others acknowledged signiﬁcant
disagreement between jurisdictions on the issue. It is
clear upon such a review that there was no well-settled
principle of law to glean from the time § 1983 was enacted.
Even if malicious prosecution claimants who had
been discharged but not acquitted could successfully
bring their suit in most states in 1871, I would not be
convinced that there was a “mountain of caselaw” indicating that the courts were in accord. In contrast, the
Court encountered a far more consistent body of 19th
century law as it applied to probable cause in Williams.
The pertinent inquiry, both here and in Williams, is
whether there was a well-settled principle at the time
§ 1983 was enacted. And, upon determining that there
was a principle, a court will determine whether it is
appropriate to apply that principle today. In Williams,
the cases and treatises that the Court reviewed sang
in unison: “[A]ccusers could not shield themselves from

App. 49
liability by establishing probable cause for other
charges.” Williams, 965 F.3d at 1160. There was no
comparable well-settled principle regarding favorable
terminations—which explains why the most esteemed
jurists of the day failed to consistently articulate one.
The majority dismisses the Acquittal Cases as
having stated such a rule only in dicta. However, identifying “well-settled” principles of law 150 years ago is
an exercise that is as academic as it is practical. Dicta
from courts of last resort—particularly the Supreme
Court—are good indications of whether principles of
law were well-settled at the time. Just as treatises of
learned scholars from the time period help to inform
our understanding of 1871 common-law, dicta by the
states’ high courts provides much needed context to
what the state of the law was at the time.
The majority also contends that each Acquittal
Case is met with a corresponding case where that
state’s court “held that a plaintiff could proceed without an acquittal.” Op. at 22. However, these cases undermine the majority’s argument in that they (1) were
written before the corresponding Acquittal Case
cited herein—see Sayles v. Briggs, 45 Mass. (4 Met.)
421 (1842); Cotton v. Wilson, Minor 203 (Ala. 1824)—
(2) were issued years after § 1983 was passed—Zebley
v. Storey, 12 A. 569 (Pa. 1888); McCrosson v. Cummings,
5 Haw. 391 (1885)—or (3) simply hold otherwise—Fortman, 8 Ohio St. at 550 (differentiating between the requirement that a plaintiff complaining of a malicious
criminal prosecution must show that he or she was
“acquitted of the charge” from the civil prosecution at

App. 50
issue whereby the defendant had “procured an attachment to be issued”).
Based on my own review of 19th century precedent, I respectfully disagree that there is a well-settled
legal principle that commands that we abandon our
reasoning in Uboh and defy the sound logic exercised
in nearly every other circuit.
Furthermore, the majority advances a standard
that does not appear in any 19th century case, has
been rejected by several of our sister circuits, and has
not been adopted by any other circuit. The majority
argues that its proposed standard more accurately reﬂects the constitutional considerations at issue under
the fourth amendment. However, such considerations
do not justify adoption of a rule that appears out of thin
air. To be clear, the Majority Opinion does not provide
the source of its “not inconsistent with his innocence
on at least one charge that authorized his conﬁnement”
rule. Op. at 28. That is likely because it has not been
adopted by any court with persuasive authority before
today.
III.

THE INDICATION OF INNOCENCE
IN THE 11TH CIRCUIT

In the absence of a well-settled rule to adopt from
1871, the Court has no reason to stray from its previous application of the indication of innocence standard
in Uboh. I am not convinced that common-law principles of 1871 or fourth amendment concerns compel a
different result.

App. 51
In Uboh, the Court, for the ﬁrst time, considered
whether “a prosecutor’s unilateral decision to dismiss
speciﬁc counts of an indictment” could constitute a termination in favor of a malicious prosecution plaintiff.
141 F.3d at 1004. The Court noted that some courts adhere to the indication of innocence standard. Id. In so
doing, the Court acknowledged that the following terminations had been held to be insufﬁcient bases for a
malicious prosecution charge: a withdrawal of criminal
charges pursuant to a compromise or agreement between the prosecutor and the defendant; a dismissal of
criminal charges “in the interests of justice”; and a reversal and remand of a criminal conviction. Id. at
1004–05. However, the Court noted that other courts
had found terminations such as acquittals, dismissals
“reﬂecting an afﬁrmative decision not to prosecute,”
dismissals pursuant to the expiration of the statute of
limitations,1 noelle prosequi dismissals, and grants of
writs of habeas corpus to be favorable terminations. Id.
at 1005 (citing Hilﬁrty v. Shipman, 91 F.3d 573, 584–
85 (3d Cir. 1996); Brandley v. Keeshan, 64 F.3d 196, 199
(5th Cir. 1995)). Finally, the Court held that, after reviewing the procedural context of the dismissal, that
the dismissal was “consistent with (though perhaps
not dispositive proof of ) a ﬁnding of innocence.” 141
F.3d at 1005. The decision is narrowly tailored: while it
indicated that the facts surrounding that particular
dismissal did likely indicate the plaintiff ’s innocence,
it did not decide whether a voluntary dismissal tends
1

The Court provided no citation for the proposition that dismissal by way of statute of limitations is a favorable termination.

App. 52
to indicate the innocence of the plaintiff. Id. at 1004–
06; see also id. at 1005 n.8 (explaining that the holding
was bolstered by “the unique combination of factors
present in this particular case”). Thus, while the Court
did not formally adopt the indication of innocence test
in Uboh, it considered other courts’ application of the
standard and applied it to those speciﬁc facts.
IV.

THE INDICATION OF INNOCENCE
STANDARD’S UBIQUITY

Unlike the any-crime rule in Williams, a question
that circuit courts were split on, the indication of innocence standard has been adopted by all the circuit
courts that have resolved this question. As such, formal adoption of the indication of innocence standard
would synchronize the Court with our sister circuits.
The First, Second, Third, Fourth, Fifth, Sixth, Seventh, Ninth, Tenth, and D.C. Circuits all rely on the indication of innocence standard, and no federal court of
appeals has adopted the majority’s rule. See Jordan v.
Town of Waldoboro, 943 F.3d 532, 545–46 (1st Cir.
2019) (“[A] plaintiff must show that the prosecution
was terminated in such a way as to imply the plaintiff ’s innocence.”); Lanning v. Cly of Glen Falls, 908
F.3d 19, 25 (2d Cir. 2018) (declining to apply a “not inconsistent with innocence” test to a § 1983 malicious
prosecution claim and clarifying that, per Manuel, the
court’s “prior decisions requiring afﬁrmative indications of innocence” control); Kossler v. Crisanti, 564
F.3d 181, 187 (3d Cir. 2009) (requiring a § 1983

App. 53
malicious prosecution claimant to establish that the
termination of the prosecution indicated his innocence); Salley v. Myers, ___ F.3d ___, 2020 WL 4664808,
at *4 (4th Cir. 2020) (opining that the favorable termination element is satisﬁed in a § 1983 malicious prosecution claim where the termination indicates the
plaintiff ’s innocence); Lemoine v. Wolfe, 812 F.3d 477,
479 (5th Cir. 2016) (“A nolle prosequi based on an extradition policy cannot constitute a bona ﬁde termination because such a dismissal is not indicative of
innocence.”); Jones v. Clark Cnty, 959 F.3d 748, 76365
(6th Cir. 2020) (applying the indication of innocence
standard to a § 1983 malicious prosecution claimant);
Logan v. Caterpillar, Inc., 246 F.3d 912, 924–25 (7th
Cir. 2001) (ﬁnding that a malicious prosecution claim
failed where the plaintiff had not introduced admissible evidence that the dismissal of the charges against
him indicated his innocence); Roberts v. Cty of Fairbanks, 947 F.3d 1191, 1201–02 (9th Cir. 2020) (acknowledging that the favorable termination element of
a malicious prosecution claim—distinct from the favorable termination rule of a challenge to a conviction or
sentence—requires a termination that indicates the
innocence of the plaintiff ); Cordova v. Cty of Albuquerque, 816 F.3d 645, 652–53 (10th Cir. 2016) (applying
the indication of innocence standard in a § 1983 malicious prosecution case as opposed to a “not inconsistent
with innocence” standard, opining that the latter approach “ﬂips the traditional rule on its head by presuming terminations are favorable until proven
otherwise”); Whelan v. Abell, 953 F.2d 663, 669–70

App. 54
(D.C. Cir. 1992) (applying the indication of innocence
standard).
Although the Fifth, Seventh, and D.C. Circuits
have only applied the indication of innocence standard
to state-law malicious prosecution claims, they have
utilized no alternative standard for the favorable termination element in § 1983 malicious prosecution.
Furthermore, those courts’ application of the indication of innocence to state-law malicious prosecution is
(1) indicative of the conﬁnes of a § 1983 claim in that
jurisdiction, and (2) further evidence of the indication
of innocence standard’s pervasiveness throughout the
federal court system. Cf Washington v. Summerville,
127 F.3d 552, 557–59 (7th Cir. 1997) (ruling that the
plaintiff failed to allege that his termination indicated
his innocence pursuant to Illinois law, and ﬁnding that
his § 1983 malicious prosecution claim likewise failed
because he could not demonstrate a cognizable statelaw claim).
That the indication of innocence standard continues to be used in light of Manuel and Nieves speaks to
its strength. The Second Circuit in Lanning opined
that the indication of innocence standard prohibits
defendants from “relitigat[ing] the issue of probable
cause . . . thus posing the prospect of harassment,
waste and endless litigation.” 908 F.3d at 26 (quoting
Singleton v. Cty of New York, 632 F.2d 185, 195 (2d Cir.
1980)). Indeed, allowing the favorable termination requirement to retain its teeth sets the tort of § 1983 malicious prosecution apart from § 1983 false arrest; to

App. 55
hold otherwise would reduce the malicious prosecution
inquiry to a mere determination of probable cause.
Finally, the Tenth Circuit expressly rejected the
not inconsistent with innocence standard. See Cordova, 816 F.3d at 654 (“It cannot be the case that all
dismissals that result from granted motions are favorable terminations for purposes of malicious prosecution actions.”). In so doing, the Tenth Circuit noted that
the indication of innocence test is “a standard feature
of the tort of malicious prosecution and a reﬂection of
the idea that malicious prosecution actions are disfavored at common law.” Id. at 653. And, the court emphasized the indication of innocence standard balances
the important considerations at play—noting that it
may bar some meritorious claims, but it serves as “a
useful ﬁltering mechanism, barring actions that have
not already demonstrated some likelihood of success.”
Id. at 654. Because almost all courts of appeal have
adopted the standard, and our adoption would not only
synchronize the circuit courts, but also strike the best
balance between ﬁltering out meritless claims and permitting claims that demonstrate some likelihood of
success, the Court should adopt the indication of innocence.
V.

THE TORT OF MALICIOUS PROSECUTION
AND THE FOURTH AMENDMENT

The majority argues that the favorable termination requirement functions as a mere “rule of accrual,
not as a criterion for determining whether a

App. 56
constitutional violation occurred.” Op. at 27. It is not
lost on me that the Fourth Amendment is primarily
concerned with searches and seizures, not prosecutions. The unlikely interplay between the elements of
malicious prosecution and Fourth Amendment considerations has, academically speaking, complicated the
administration of the tort under § 1983. For example,
then-Circuit Judge Neil Gorsuch concurred in the
judgment in Cordova but expressed doubts about
whether malicious prosecution should remain a recognized tort under § 1983. He opined that because the
Fourth Amendment “focused on restraining police action before the invocation of judicial processes,” while
the tort of malicious prosecution implicated “the misuse of judicial proceedings, . . . it’s just pretty hard to
see how you might squeeze anything that looks quite
like the common law tort of malicious prosecution into
the Fourth Amendment.” Id. at 662–63 (Gorsuch, J.,
concurring). He noted that there was signiﬁcant diversity between opinions that had embraced the issue, but
that the Supreme Court had recently agreed to revisit
the question—it had just granted cert in Manuel v. City
of Joliet, 590 F. App’x 641 (7th Cir. 2015), cert. granted,
136 S. Ct. 890, 193 L. Ed. 2d 783 (2016). However, the
Supreme Court declined to take up that mantel. See
Manuel, 137 S. Ct. at 923 (Alito, J., dissenting) (opining
that the majority ignored “the question that we agreed
to decide, i.e., whether a claim of malicious prosecution
may be brought under the Fourth Amendment”). The
Supreme Court has not since given any indication that
malicious prosecution cannot exist as a tort under the
fourth amendment, and our own precedent reinforces

App. 57
its continued existence as such. See Williams, 965 F.3d
at 1157 (requiring that a § 1983 malicious prosecution
claimant satisfy “the elements of the common law tort
of malicious prosecution”).
The majority attempts to massage the favorable
termination requirement in a way that will square the
tort of malicious prosecution with the Fourth Amendment, thus tying a tidy bow on the debate. However,
this Court is not tasked with answering this bigger
question, left unanswered by the Supreme Court. Instead, we are asked merely to apply the tort of malicious prosecution under § 1983—a tort which exists,
despite some persuasive arguments in favor of its elimination—to a set of facts that might be new to this
Court but are far from groundbreaking. If malicious
prosecution is a tort that is so incongruous with the
Fourth Amendment that it can no longer be cognizable
under § 1983, then a court will be asked to prohibit
such claims. No one has asked the Court to do so today.
Therefore, rather than trying to force § 1983 malicious
prosecution to be something completely other than
what it is—a tort that concerns the abuse of legal processes—we should apply the law as it lays before us.
VI. THE MAJORITY’S APPROACH
SPRINGBOARDS EVERY CLAIM TO
SUMMARY JUDGMENT
The majority does not adequately consider the
practical effect of adopting its proposed rule. Even if
such a shift will not result in an inﬂux of malicious

App. 58
prosecution cases ﬁled on federal dockets, district
courts will face greater difﬁculty in efﬁciently disposing with unsupported claims.
The utility of the rule as laid out by our sister circuits and applied in Uboh is that it permits courts to
dismiss faulty claims prior to discovery. For a malicious
prosecution claim to survive a motion to dismiss, a
plaintiff in any other circuit must afﬁrmatively aver
that the way the prosecution was terminated indicates
his or her innocence in some way. Under the majority’s
rule, a prospective plaintiff need only plead two negatives: (1) that there was no probable cause; and (2) that
the termination of the prosecution was not inconsistent
with his innocence.
This distinction is not semantic. Pleading a want
of probable cause is easy. Even in cases where there is
ample probable cause for the initiation of legal process,
a complaint that reads “Plaintiff was not doing what
the arresting ofﬁcer said Plaintiff was doing” will not
be dismissed as a matter of law. Indeed, the district
courts within this circuit are routinely forced to deny
motions to dismiss on probable cause grounds, even
where no evidence would support the plaintiff ’s allegation. See, e.g., Blackshear v. Cty of Miami Beach, 799
F. Supp. 2d 1338, 1347 (S.D. Fla. 2011) (“[W]here the
legitimacy of relevant evidence is disputed . . . the
question of whether there is an absence of probable
cause is inappropriate at [the motion to dismiss] stage
in the litigation.”); Ruch v. McKenzie, No. 1:15-cr03296, 2019 WL 1407012, at *11 (N.D. Ga. Mar. 28,
2019) (noting that while the court previously denied a

App. 59
motion to dismiss on probable cause grounds—after
accepting the claim that there was no probable cause
for the plaintiff ’s arrest as true—the “undisputed evidence available at summary judgment shows [the]
[d]efendant had probable cause or at least arguable
probable cause to arrest a fundamentally different factual predicate than existed at the motion to dismiss
stage”); Stefani v. Cty of Grovetown, No. 1:15-cv-164,
2016 WL 4611575, at *5 (S.D. Ga. Sept. 2, 2016) (determining that “the motion-to-dismiss stage is not the
appropriate time” to resolve whether the defendants
had arguable probable cause for the purposes of qualiﬁed-immunity).
The favorable termination element provides an
additional opportunity for courts to stop false claims
short. To reduce this element to any termination that
is not inconsistent with the plaintiff ’s innocence on
at least one charge, district courts will invariably be
bound to deny motions to dismiss on facts that have no
chance of surviving summary judgment. Although the
Majority Opinion does not explain what a sufﬁcient
claim for a favorable termination would look like under
its rule, it appears that there is no need for a plaintiff
to plead anything more than “the charges against me
were dismissed.”
The indication of innocence standard does not per
se disallow a plaintiff like Laskar from making a malicious prosecution claim under § 1983. Rather, it merely
requires a plaintiff like Laskar to point to something
that would indicate that his dismissal by way of the
expiration of the statute of limitations affirmatively

App. 60
indicates his innocence in some way. This is not an onerous task—all that is required is the pleading of some
contextual facts. Take, for example, a prosecutor that
acted with malice in pursuing a prosecution not
founded on probable cause, but then allowed the action
to lay dormant until it became time-barred to foreclose
a malicious prosecution claim. Such a plaintiff could
plead exactly that and, depending on the speciﬁcity and
sufﬁciency of his allegations, still pass the indication of
innocence test. See Cordova, 816 F.3d at 654. District
courts could dispose of claims where a plaintiff cannot,
in good faith, make such averments before discovery
commences. And, those plaintiffs that do have meritorious claims could plead the contextual facts necessary
to allege that their terminations were favorable. Not
only would government and judicial resources be
spared, but plaintiffs that have suffered a genuine malicious prosecution would have no trouble having their
cases heard. The indication of innocence standard is
efﬁcient and just.
VII.

CONCLUSION

Accordingly, because the indication of innocence
standard (1) has already been applied by this Court,
(2) is heralded as the standard in almost every other
circuit, (3) permits the dismissal of spurious claims at
the motion to dismiss stage, and (4) is not contrary to
any well-settled common-law principle at the time of
§ 1983’s passage, I respectfully dissent.

App. 61
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
JOY LASKAR, Ph.D

)
)
Plaintiff,
)
CIVIL ACTION FILE
v.
)
NO: 1:18-cv-04570-WMR
)
PHILLIP W. HURD, et al.,
)
Defendants.
)
ORDER ON DEFENDANTS’
MOTION TO DISMISS
(Filed Apr. 2, 2019)
This matter comes before the Court on Defendants’ Motion to Dismiss [Doc. 21]. Plaintiff Joy Laskar,
Ph.D. (“Dr. Laskar”) ﬁled a Complaint in this Court on
September 28, 2018, pursuant to 42 U.S.C. § 1983 and
§ 1988, alleging malicious prosecution in violation of
the Fourth Amendment. Defendants (Jenkins, Garton,
Allen, and Hurd) now move to dismiss, claiming that
Dr. Laskar cannot establish that he received a favorable termination necessary for a malicious prosecution
suit because the criminal charges against him were
dismissed based solely on the running of the statute of
limitations. In the alternative, Defendants contend
that they are entitled to qualiﬁed immunity. For the
following reasons, this Court GRANTS Defendants’
Motion to Dismiss [Doc. 21].

App. 62
I.

BACKGROUND

Prior to the termination of his employment, Dr.
Laskar was an electrical engineer at the Georgia Institute of Technology (“Georgia Tech”) and became a full
tenured professor in 2002. (Doc. 19, at p. 3 ¶2, and at
p. 19 ¶27.) His work focused primarily in the ﬁeld
“mixed signal design technology,” wherein he designed
and developed signal integration circuits and chips for
digital communication systems. (Id. at p. 3 ¶2, and at
p. 17 ¶20.) Dr. Laskar has obtained over 50 patents in
the signal design industry. (Id. at p. 21 ¶32.) In 2003,
he helped found Georgia Tech’s Georgia Electronic Design Center (“GEDC”) and served as its ﬁrst Director.
(Id. at p. 5 ¶5.) Dr. Laskar also is the founder of Sayana
Wireless LLC (“Sayana”), a technology company created in 2006. (Id. at p. 9 ¶8, and at p. 22 ¶34.)
After its formation, Sayana granted the Georgia
Tech Research Corporation (“GTRC”) a 5% member interest in Sayana and also became a member company
of GEDC. Sayana paid $90,000 to GEDC to support its
membership, as well as additional payments for GEDC
research assistants and research expenses. (Id. at p. 25
¶38.) Moreover, Sayana paid patent and licensing fees
to GTRC totaling $220,000. (Id.) Because of these payments, “Sayana made use of Georgia Tech facilities, research equipment and staff.” (Id.) It is alleged in the
Complaint that this use was authorized and was typical of any company “hosted and afﬁliated” with GEDC.
(Id.)

App. 63
In 2010, Dr. Laskar was notiﬁed of a pending Georgia Tech investigation against him and others concerning the use of resources within the GEDC. (Id. at p. 27
¶42.) The President of Georgia Tech notiﬁed Dr. Laskar
that the Department of Internal Audit found “substantial evidence of malfeasance . . . including the misappropriation of Institute resources for the beneﬁt of
[Sayana].” (Id.) Due to these allegations, Dr. Laskar
was suspended without pay until the investigation was
complete. (Id. at p. 27 ¶43.) Dr. Laskar alleges that this
suspension violated multiple provisions in the Faculty
Handbook and the Board of Regents’ Manual, such as
those that state the President shall only be allowed to
suspend a faculty member after a hearing and dismissal. (Id. at p. 27 ¶43, and at p. 28 ¶45, ¶46.) Moreover,
representatives of Georgia Tech, including the Defendants, allegedly violated other provisions of the Faculty
Handbook when they disseminated information about
Dr. Laskar’s suspension to the news media. (Id. at
p. 29-30 ¶47 and¶48.)
The investigation began on January 15, 2010,
when Defendant Allen, the Senior Vice Provost for Research and Innovation at Georgia Tech, recommended
that an Internal Audit be conducted to “determine
whether or not [certain] funds were double-spent[.]”
(Id. at p. 32 ¶54, and at p. 34 ¶55.) Defendant Allen
then began communicating with Dr. Laskar about
ways to reduce this large overrun involving Samsung,
one of the companies Dr. Laskar had recruited to fund
research at GEDC. (Id. at p. 35 ¶55.) After several
meetings with Defendant Garton, the Associate Vice

App. 64
Provost for Research at the Georgia Institute of Technology, and other Georgia Tech employees, Defendant
Hurd, the Chief Audit Executive of Georgia Tech’s Department of Internal auditing, decided to “expand his
investigation to conduct an audit of all GEDC finances.” (Id. at p. 32 ¶54, and at p. 37 ¶55.)
Following this investigation, Defendant Hurd and
his team produced an “Ofﬁcial Report of Suspected
Malfeasance,” declaring that Dr. Laskar had made misrepresentations to the IRS, had misused equipment
and resources in order to further the interests of
Sayana, and had violated Georgia Tech policy and statutory law. (Id. at p. 37 ¶¶56-57.) The State of Georgia
Senior Assistant Attorney General, David S. McLaughlin, was notiﬁed of the report and, after consideration,
concluded that the GBI should pursue a criminal investigation. (Id. at p. 38 ¶59, and at p. 39 ¶¶61-62.) Defendant Hurd and GBI Special Agent Lisa Vorrasi
sought issuance of an order for the search and seizure
of Dr. Laskar’s home and two of his automobiles. (Id. at
p. 40 ¶65.) Dr. Laskar alleges that these searches and
seizures were intended to disrupt the sale of Sayana,
which resulted in a cancelled auction losing Sayana
millions of dollars in sales proceeds. (Id. at p. 41 ¶67,
and at p. 92 ¶ 187.)
The afﬁdavit in support of the order for the search
and seizure stated, inter alia, that Sayana and Dr. Laskar stole money from Georgia Tech to pay for Sayana’s
debt through the purchase of certain microchips. (Id.
at pp. 41-42 ¶67.) The afﬁdavit stated that Dr. Laskar
“had stolen ‘as much as $700,000 or more.’ ” However,

App. 65
Dr. Laskins contends that there was no information to
support the GBI’s ﬁnding of “probable cause.” (Id. at
p. 42 ¶67.) To the contrary, Dr. Laskins alleges that the
microchips purchased by Georgia Tech were used by
the school and its students, rather than to help pay for
debt incurred by Sayana. (Id. at p. 42 ¶67.) Furthermore, Dr. Laskar contends that Defendant Hurd had
not even attempted to determine whether the chips
were being used for the Georgia Tech students that
were writing their research dissertations. (Id. at p. 67
¶ 116.)
In addition, Defendants Jenkins, Hurd, and Garton allegedly testiﬁed under oath and misrepresented
that Sayana used the Georgia Tech ofﬁce space without
payment and noted that GEDC members only had access to observe, but no ability to use, the resources. (Id.
at pp. 48-49 1174-77, and at p. 51 ¶81.) However, Defendant Allen contradicted the testimony by stating
that it was possible for GEDC members to use the resources, laboratories, and equipment after a sponsored
research agreement was created and that members
would be billed for such use, although he was unaware
of this being done with any GEDC member company
that had used such resources. (Id. at p. 51 ¶82.) Also,
Defendant Jenkins allegedly testiﬁed that he had no
evidence that other GEDC member companies that
had been using laboratory equipment and resources
had contracts in place or were being billed for the use
of the equipment and resources. (Id. at p. 58 ¶93.)
On December 30, 2014, Dr. Laskar was criminally
indicted for “racketeering and theft in connection with

App. 66
the purchase by Georgia Tech of CMP computer prototype chips.” (Id. at p. 93 ¶ 189.) The criminal charges
were ultimately dismissed, however, because any alleged criminal acts could have only occurred outside
the applicable statute of limitations period. (Id. at p. 93
¶ 190.) Therefore, Dr. Laskar argues this was a “favorable termination” that sufﬁciently supports the basis
for his § 1983 suit for malicious prosecution. (Id. at
pp. 97-99 ¶ 197.) In their motion to dismiss, Defendants contend that a dismissal of a prosecution based
on the running of the statute of limitations is merely a
procedural termination, and, therefore, is not a favorable termination that would “suggest the accused’s innocence.” (Doc. 21-1 at p. 2.) Defendants also argue that
even if the statute of limitations dismissal is considered a favorable termination for a federal malicious
prosecution claim, qualiﬁed immunity should apply.
(Id.)
I.

LEGAL STANDARD

A plaintiff will survive a 12(b)(6) motion to dismiss
if the complaint contains “factual content that allows
the court to draw the reasonable inference that the defendant is liable for the misconduct alleged.” Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009). When considering a
motion to dismiss, the court must accept as true the
facts alleged in the complaint and draw all reasonable
inferences in favor of the plaintiff. Gates v. Khokhar,
884 F.3d 1290, 1296 (11th Cir. 2018), cert. denied, 139
S. Ct. 807 (2019). However, conclusory allegations are
not entitled to the same assumption of truth and must

App. 67
be supported by additional factual allegations. Ashcroft, 556 U.S. at 678-679; Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555 (2007) (“[A] plaintiff ’s obligation to
provide the ‘grounds’ of his ‘entitle[ment] to relief ’ requires more than labels and conclusions”); Ashcroft,
556 U.S. at 678-679. Moreover, while courts are typically limited to the face of the complaint when considering a motion to dismiss, the court may also take
“judicial notice” of certain documents, such as public
records and criminal orders, referred to in the complaint that are central to the plaintiff ’s claim. Davis v.
Williams Communications, Inc., 258 F. Supp. 2d 1348,
1352 (N.D. Ga. 2003); Brooks v. Blue Cross and Blue
Shield of Fla., Inc., 116 F.3d 1364, 1369 (11th Cir.
1997).
II.

DISCUSSION

A. Dismissal of Plaintiff’s criminal charges
because of a running of the statute of limitations does not constitute a favorable
termination necessary for his 42 U.S.C.
§1983 Malicious Prosecution Claim.
The Eleventh Circuit has held that alleging malicious prosecution as a violation of the Fourth Amendment is a viable constitutional tort under 42 U.S.C.
§1983. See Uboh v. Reno, 141 F.3d 1000, 1002-1003
(11th Cir. 1998); Wood v. Kesler, 323 F.3d 872, 882 (11th
Cir. 2003) (“[A] Fourth Amendment malicious prosecution claim under § 1983 remains a federal constitutional claim, and its elements and whether they
are met ultimately are controlled by federal law”). To

App. 68
establish a federal malicious prosecution claim under
§ 1983, however, “a plaintiff must prove (1) the elements of the common law tort of malicious prosecution,
and (2) a violation of [the plaintiff ’s] Fourth Amendment right to be free from unreasonable seizures.”
Kingsland v. Miami, 382 F.3d 1220, 1234 (11th Cir.
2004). Speciﬁcally, for a malicious prosecution claim,
the plaintiff must allege (1) a criminal prosecution was
instituted or continued by the defendant(s); (2) maliciously and without any probable cause; (3) terminated
in the accused plaintiff ’s favor; and (4) caused damages to the plaintiff. Uboh, 141 F.3d at 1004. In this
case, Defendants refer to and ask the court to consider
the “Order on Defendant’s Plea in Bar,” which reveals
that the trial court dismissed Dr. Laskar’s criminal
case based solely on a running of the statute of limitations. (Doc. 21-1 at p. 4.) Defendants contend that the
complaint should be dismissed because the dismissal
of Dr. Laskar’s criminal charges does not satisfy the favorable termination element of his malicious prosecution claim.
Neither the Supreme Court nor the Eleventh Circuit has speciﬁcally addressed whether a statute of
limitations dismissal is a favorable termination for
purposes of a § 1983 malicious prosecution claim. However, the Eleventh Circuit has appeared to endorse the
widely-accepted requirement that the termination of
criminal charges at least reveal an indication of the accused’s innocence. See Stepanovich v. City of Naples,
728 F. Appx 891, 899 (11th Cir. 2018) (ﬁnding that the
“Plaintiffs have not “plausibly suggest[ed]” that the

App. 69
prosecution’s decision not to pursue the original
charges of resisting without violence and disorderly
conduct indicated innocence on those charges”); Uboh,
141 F.3d at 1005 (ﬁnding “nothing in the record to suggest that the prosecutor’s request to withdraw all drug
charges . . . amounts to anything less than an indication of innocence”).
Many other circuits have straightforwardly required an indication of innocence in order for a plaintiff to establish a favorable termination.1 For example,
the Second Circuit in Lanning v. City of Glens Falls explicitly held that “where a dismissal . . . ‘leaves the
question of guilt or innocence unanswered[,] . . . it cannot provide the favorable termination required as the
basis for [that] claim.’ ” 908 F.3d 19, 28-29 (2d. Cir.
2018) (quoting Hygh v. Jacobs, 961 F.2d 359, 367-368
(2d Cir. 1992)). Therefore, the plaintiff ’s malicious
prosecution claim was not viable because the mere allegation that the criminal charges were dismissed
failed to show “that the criminal proceedings against
him were terminated in a manner indicating his innocence.” Lanning, 908 F.3d at 28; see also Taylor v.
1

The Supreme Court has also alluded to the indication of innocence requirement when addressing the policies underlying the
favorable termination element. See Heck v. Humphrey, 512 U.S.
477, 484 (1994) (noting that the requirement of favorable termination “avoids parallel litigation over the issues of probable cause
and guilt”) (emphasis added). Because the Supreme Court included “guilt” in its policy rationale, it suggests that the disposition of the criminal prosecution should have some indication of
innocence in order to satisfy the favorable termination element of
a malicious prosecution claim.

App. 70
Gregg, 36 F.3d 453, 456 (5th Cir. 1994) (Adopting the
Second Circuit’s holding and reasoning that “proceedings are terminated in favor of the accused only when
their ﬁnal disposition indicates that the accused is not
guilty”). The Third Circuit also requires that a favorable termination indicate the defendant’s innocence.
See, e.g., Poku v. Himelman, 448 F. App’x 217, 220 (3d
Cir. 2011) (quoting Kossler v. Crisanti, 564 F.3d 181,
188 (3d. Cir. 2009)) (“[A] plaintiff . . . fail[s] to establish
that the proceeding ended in his favor “[w]hen the circumstances . . . indicate that the judgment as a whole
does not reﬂect the plaintiff ’s innocence”). Additionally, in Logan v. Caterpillar, Inc., the Seventh Circuit
held that the plaintiff did not meet his “burden to show
that the witness harassment charge was dismissed for
reasons consistent with his innocence simply by proclaiming his innocence.” 246 F.3d 912, 926 (7th Cir.
2001). Similarly, the Ninth Circuit has also adopted
the indication of innocence requirement. See, e.g.,
Awabdy v. City of Adelanto, 368 F.3d 1062, 1068 (9th
Cir. 2004) (declaring that lain individual seeking to
bring a malicious prosecution claim must generally establish that the prior proceedings terminated in such
a manner as to indicate his innocence”).
Among the circuits that have adopted the indication of innocence requirement, some have also applied
it to conclude that a dismissal based on technical or
procedural grounds is not a favorable termination. The
Tenth Circuit has held that a dismissal “that ‘does not
touch the merits . . . leaves the accused without a favorable termination.’ ” Cordova v. City of Albuquerque,

App. 71
816 F.3d 645, 651 (10th Cir. 2016). In the Cordova
case, the plaintiff “ask[ed] [the court] to set aside [its]
indicative-of-innocence standard and ﬁnd that speedy
trial dismissals are per se favorable.” Id. However, the
Court rejected this approach and held that this case
was an example of a dismissal “attributable to technical or procedural errors that do[es] not reﬂect the
merits” and, therefore, is not a favorable termination.
Id. at 652. The California Supreme Court in Lackner v.
LaCroix also speciﬁcally held that a dismissal of a
criminal action based on a statute of limitations defense is technical or procedural as distinguished from
a substantive termination and does not reﬂect on the
merits of the underlying action. 25 Cal. 3d 747, 751752 (1979). Therefore, the dismissal did not allow the
plaintiff to maintain a cause of action for malicious
prosecution. See id.
Further, although the Eleventh Circuit has not yet
addressed whether a statute of limitations dismissal is
a favorable termination for purposes of a malicious
prosecution claim, the Court has determined that a
“bona ﬁde termination” in a garnishment proceeding
must be “on the merits instead of for a procedural reason.” Barniv v. BankTrust, 579 F. App’x 719, 721 (11th
Cir. 2014). Under Florida law, a wrongful garnishment
claim has the same elements as a malicious prosecution claim. See id. Therefore, since the Eleventh Circuit
has indicated that procedural dismissals are not bona
ﬁde favorable terminations in this context, it likely follows that a procedural dismissal based on the statute

App. 72
of limitations would also be insufﬁcient for a favorable
termination in a malicious prosecution claim.
Dr. Laskar argues, on the other hand, that the
Eleventh Circuit has explicitly considered this issue in
Uboh v. Reno, where it noted that some “courts have
found favorable termination to exist by virtue of an acquittal, an order of dismissal reﬂecting an afﬁrmative
decision not to prosecute, [or] a dismissal based on the
running of the statute of limitations”. 141 F.3d at 1005
(11th Cir. 1998). However, in that case, the court was
not presented with the facts of a dismissal based on the
statute of limitations and, therefore, was not ultimately stating that it adopted this view. Instead, the
Court was merely referencing, as dicta, the decisions of
other jurisdictions.
Moreover, Dr. Laskar contends that the Northern
District of Georgia has concluded that “the issue in a
malicious prosecution case is not the plaintiff ’s guilt or
innocence.” Harris v. Wal-Mart Stores East, LP, No.
1:11-CV-03406-CC, 2013 WL 6795973, at *6 (N.D. Ga.
Dec. 23, 2013). Yet, even assuming this to be true, this
case is distinguishable from Harris, where the dismissal was not based on procedural grounds. In Harris, the
plaintiff presented the court with the district attorney’s Request to Dismiss Warrants, which stated that
“[w]ithout any evidence other than the defendant’s
statement, the State does not believe it can prove this
case beyond a reasonable doubt.” Id. at *7. The State’s
basis for the dismissal, therefore, expressly concerned
the merits of the case; without enough evidence, the
criminal defendant could never be convicted. It would

App. 73
be only logical then to consider this a favorable termination, as opposed to a termination on procedural
grounds where the merits of the case are not reﬂected.
In conclusion, the Eleventh Circuit’s adherence to
the indication of innocence requirement compels this
Court to hold that the dismissal of Dr. Laskar’s criminal case based on the running of the statute of limitations is not a favorable termination. Dr. Laskar’s
criminal order clearly reveals that the dismissal of his
charges was based on a statute of limitations defense.
Since a court may consider this evidence in addition to
the factual allegations pled in the complaint, this
Court holds that the statute of limitations defense terminated the criminal charges before the merits could
be addressed. A mere procedural dismissal that does
not reﬂect the merits of the case cannot indicate Dr.
Laskar’s innocence. Therefore, Dr. Laskar is unable to
satisfy the favorable termination element of his malicious prosecution claim.
Notwithstanding this determination, however,
there are also policy reasons suggesting that a dismissal based on procedural grounds should be considered
a favorable termination. From a common-sense perspective, there is no doubt that a dismissal of criminal
charges, whether for procedural or substantive reasons, is favorable to the defendant. When a case gets
dismissed because the statute of limitations has run,
the criminal charges against the defendant can no
longer be pursued, as opposed to, for example, a civil
case that is dismissed without prejudice. Therefore,
the statute of limitations dismissal certainly seems to

App. 74
favor the accused and, since the defendant is not “convicted,” the determination also respects the Supreme
Court’s policy that convicted defendants should not be
able to collaterally attack their convictions using a civil
suit.2
Moreover, holding that a statute of limitations dismissal is not a favorable termination could potentially
yield inequitable results. For example, in this case,
there is no dispute that the running of the statute of
limitations was the reason that Dr. Laskar’s criminal
case was dismissed. Yet, it is conceivable that a jury in
a different criminal case could return a general verdict
in favor of the defendant without having to indicate
whether its decision was based on the statute of limitations defense or on the merits. See, e.g., Harried v.
Forman Perry Watkins Krutz & Tardy, 813 F. Supp. 2d
835, 842 (S.D. Miss. 2011) (noting that “[t]he jury in the
trial . . . against Willie Harried resulted in a favorable
verdict for Harried; but that verdict was a general verdict and thus there is no way to determine whether the
jury found in Harried’s favor on the merits, or on Harried’s statute of limitations defense.”). If a statute of
limitations dismissal is not a favorable termination,
then a criminal defendant whose case gets dismissed
for that reason cannot maintain a § 1983 malicious
prosecution suit, whereas a dismissal under the guise
of a “general verdict” may allow a defendant to proceed
2

See Heck v. Humphrey, 512 U.S. 477, 484 (1994) (declining
to “expand opportunities for collateral attack” by preventing a
convicted defendant from challenging the criminal conviction
“through the vehicle of a civil suit.”).

App. 75
with a civil suit solely because of the jury’s non-speciﬁc
basis for its decision.3
Despite these arguments to the contrary, Eleventh
Circuit precedent and that of other persuasive jurisdictions suggests that a termination based on a statute of
limitations dismissal is insufﬁcient to indicate the innocence of Dr. Laskar. Therefore, since he is unable to
satisfy a necessary element of his § 1983 malicious
prosecution claim, the case should be dismissed.
III.

CONCLUSION

For the reasons stated above, the Court GRANTS
Defendants’ Motion to Dismiss [Doc. 21]. Because the
motion is granted for Plaintiff ’s failure to establish the
favorable termination element of his § 1983 claim, the
Court need not address the issue of qualified immunity.
IT IS SO ORDERED this 2nd day of April, 2019.
/s/ William M. Ray II
WILLIAM M. RAY II
United States District Judge
Northern District of Georgia
3

Additionally, although unlikely, prosecutors could potentially use the determination as a strategic maneuver to freely engage in the malicious prosecution of a plaintiff, ﬁle the criminal
case outside of the statute of limitations period, and, consequently, shield themselves from civil liability, knowing that the
favorable, bona-ﬁde termination element will not be satisﬁed by
this type of dismissal.

App. 76
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 19-11719-HH
-----------------------------------------------------------------------

JOY LASKAR, PH.D.,
Plaintiff - Appellant,
versus
PHILLIP W. HURD, PATRICK A. JENKINS,
JILDA D. GARTON, MARK G. ALLEN,
Defendants - Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Georgia
-----------------------------------------------------------------------

ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
(Filed Oct. 23, 2020)
BEFORE: WILLIAM PRYOR, Chief Judge, ROSENBAUM, Circuit Judge, and MOORE,* Chief District
Judge.

* Honorable K. Michael Moore, Chief United States District
Judge for the Southern District of Florida, sitting by designation.

App. 77
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having requested that the Court be polled on rehearing en banc.
(FRAP 35) The Petition for Rehearing En Banc is also
treated as a Petition for Rehearing before the panel
and is DENIED. (FRAP 35, IOP2)

